<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: COAST GUARD SEA, LAND, AND AIR CAPABILITIES, PART 1</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: COAST GUARD SEA, 
                   LAND, AND AIR CAPABILITIES, PART 1

=======================================================================

                                (115-17)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
             
             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-727 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>             
             
             
             
             
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
GARRET GRAVES, Louisiana             RICK LARSEN, Washington
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               ELEANOR HOLMES NORTON, District of 
JASON LEWIS, Minnesota, Vice Chair       Columbia
BILL SHUSTER, Pennsylvania (Ex       PETER A. DeFAZIO, Oregon (Ex 
    Officio)                             Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Vice Admiral Charles W. Ray, Deputy Commandant for Operations, 
  U.S. Coast Guard...............................................     5
Vice Admiral Sandra L. Stosz, Deputy Commandant for Mission 
  Support, U.S. Coast Guard......................................     5
Marie A. Mak, Director of Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     5
John Acton, Chairman, Coast Guard Affairs Committee, Navy League 
  of the United States...........................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. John Garamendi of California................................    42

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Vice Admiral Charles W. Ray and Vice Admiral Sandra L. Stosz, 
  joint statement................................................    46
Marie A. Mak.....................................................    50
John Acton.......................................................    74

                       SUBMISSIONS FOR THE RECORD

Response from U.S. Coast Guard to request for information from 
  Hon. John Garamendi, a Representative in Congress from the 
  State of California............................................    27
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: COAST GUARD SEA, 
                   LAND, AND AIR CAPABILITIES, PART 1

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. Thanks for 
being here, everybody, today. And before we start off, I want 
to just call out a few people.
    Reyna, this is her last hearing. Lieutenant Commander Reyna 
McGrail, she has been our Coast Guard Fellow. She has been 
working with John Rayfield quite a bit. Just want to give her a 
happy sendoff, and tell you thank you very much for your 
service to the committee and the country.
    Next, Captain Tom Allan--there he is, he is sitting back 
there--this is his last hearing, too. And they are really--they 
are all very happy about this, actually.
    [Laughter]
    Mr. Hunter. This is it for them. They don't have to do this 
any more.
    But Captain Allan is going on to do bigger and better 
things, right? And we will miss you sorely here.
    And lastly, Jo-Ann Burdian, Commander Burdian, is leaving 
to go be a dependent----
    [Laughter]
    Mr. Hunter [continuing]. Or whatever you are doing in 
Washington State. And we just want to thank you for what you 
have done. Especially Jo-Ann Burdian, we have spent countless 
hours with Joe Kasper and Jo-Ann, talking Coast Guard stuff. We 
have learned so much from you, and hopefully you were able to 
take a lot from us, too.
    We think that this has been one of the most legislatively 
ambitious chairmanships of this subcommittee. At least that is 
what we have been trying to do, really pushing acquisition 
reform, really pushing icebreakers, and trying everything we 
can do to make the Coast Guard love itself. We want to 
weaponize cutters, we want to give you your own UAS. You are 
going to be on par with the Navy now, when it comes to block 
buys and lead-time materials, so--and icebreakers, eLoran 
system, all of these things that we thought were needed.
    Jo-Ann definitely is responsible for helping put the Coast 
Guard on the right track. I know there are lots of Coasties, it 
takes a lot of people to make the liaison office stuff work. 
But I will just tell you, Jo-Ann, you are going to be sorely 
missed, too. We don't know what we are going to do.
    And we actually introduced a bill yesterday that said we 
are going to withhold $1.3 billion until Jo-Ann Burdian is 
reinstated as the House liaison.
    [Laughter]
    Mr. Hunter. So we will see how far that goes.
    But you are all going to be missed. Thank you very much for 
what you have done for the country and for the Congress, and 
for working with us, and making us better at what we do.
    So, with that, the subcommittee is meeting today to review 
the status of Coast Guard infrastructure and how ongoing 
infrastructure improvements will move the Coast Guard into the 
21st century.
    The Service has been undergoing a recapitalization of its 
assets for over two decades to replace assets that are over 30 
years old. It has been a long record with some hard lessons 
learned along the way, but progress is being made to ensure the 
Coast Guard has the assets it needs to conduct its missions. We 
now need to assure that the Service has the resources to 
operate their recapitalized assets.
    The subcommittee has held oversight hearings over many 
Congresses to review the Coast Guard's progress from fledgling 
acquisition capabilities to its now fully developed acquisition 
programs. In addition, our oversight has included hearings on 
Government Accountability Office reports reviewing Coast Guard 
acquisition programs and how the new assets will support 
Service missions, along with where gaps may exist.
    An important part of this subcommittee's oversight is to 
understand mission capabilities within the asset 
recapitalization: how to identify mission gaps with new and 
aging assets; how maintenance of aging vessels can impact 
budget decisions; where new technologies could be used to 
provide improved mission domain awareness and assist the Coast 
Guard with better utilizing its assets and its personnel; and 
how other Coast Guard infrastructure may have been affected by 
the cutter recapitalization.
    The cost to recapitalize Coast Guard assets is in the 
billions of dollars, and the Coast Guard has worked to do so 
within smaller budgets and appropriations since 2010. The 
Service has done its best to keep asset acquisition moving 
forward, but has been forced to make choices on what programs 
its limited funding will support. To focus on the much-needed 
new assets, the Coast Guard has continued funding for these 
acquisitions programs, while shoreside infrastructure, shore 
maintenance, and the environmental cleanup and restoration 
programs have incurred backlogs.
    The Commandant of the Coast Guard, in his state of the 
Coast Guard address, acknowledged the shore infrastructure 
backlog, stating the current backlog exceeds $1.6 billion. We 
understand the shore maintenance backlog is roughly $708 
million. The bottom line is Congress needs to understand the 
needs of the Coast Guard, clearly and succinctly.
    I have requested the Coast Guard send a wish list of 
projects to Congress, a wish list and unfunded requirement 
list. The list will not be available until the end of June, 
according to the Coast Guard. However, I look forward to 
discussing with our witnesses today the status of existing and 
new assets, any known gaps and measures being taken to address 
them, areas that can be streamlined, and impacts of operations 
and maintenance costs.
    I would like you to talk about what your June request will 
look like, even though it is not the end of June, it is the 
beginning of June. But I think you guys know what it looks 
like, and we would just like to hear--if you are going to have 
icebreakers in there, we authorized six new cutters to go help 
CENTCOM [U.S. Central Command]. Those got approved in our 
authorization request. We would like to talk about how you plan 
on actually building those, what your plans are, going forward, 
and if those are going to be on your unfunded list to the 
appropriators.
    So, with that, I now yield to Ranking Member Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. You started off 
with an appropriate thank-you to those many men and women that 
have assisted us from the Coast Guard, Jo-Ann and all the team. 
And we--I could repeat all of that. Shall I?
    Mr. Hunter. Sure.
    Mr. Garamendi. Sure, we will go ahead and do it.
    We will let it go, Jo-Ann. Thank you so very much, to be 
able to work with you and your team.
    So let's get on with it here. I am looking forward to 
renewing our oversight and the progress that is being made to 
date in building our ready, capable, and adaptable Coast Guard 
for this century. Your enduring role in protecting our shores 
and facilitating our maritime commerce, both nearshore, 
offshore, and around the world: few things are more important 
to our Nation's future prosperity.
    In fact, I was talking to my wife last night and she said, 
``You got the Coast Guard here?'' I said, ``Yeah.'' She said, 
``Why don't you tell them that the real wall is the Coast 
Guard?'' So I am going to tell you. The real wall, Mr. 
President, is the Coast Guard. So let's pay attention to that.
    Considerable progress has been made. The Coast Guard is 
nearing completion of building out the program of record for 
the National Security Cutter, the most cutting-edge vessel ever 
to sail with the Coast Guard's distinctive red racing stripe.
    Additionally, the Coast Guard has successfully awarded the 
contract and moved forward to begin the second phase of the 
Fast Response Cutter program. Ultimately, this program will 
provide the Coast Guard with 58 cutters of remarkable 
versatility and capability to meet the challenging demands 
found in the U.S. coastal waters, and allow the Coast Guard to 
retire its legacy fleet of Medium Endurance Cutters and the 
110-foot Island class patrol boats.
    Perhaps even more important, the Coast Guard last year 
awarded the contract to Eastern Shipbuilding to complete the 
detailed design and initial construction of the most expensive 
segment of the recapitalization, a fleet of 25 Offshore Patrol 
Cutters. This progress is real, and I appreciate the work that 
has been done by the Coast Guard in moving it along. The Coast 
Guard's acquisition directive deserves credit for keeping these 
programs on budget and on schedule.
    Several challenges remain, however. Always the case. And 
that is the critical three-letter B-U-T word. But the Coast 
Guard can ill-afford to rest on its laurels.
    First, the Coast Guard's icebreaking fleet remains a 
liability, potentially a very serious gap in the Coast Guard's 
operational capability in high-latitude regions. Prodded by the 
chairman and some of us, the Coast Guard has taken steps to 
expedite the design for a new heavy icebreaker.
    And, yes, Admiral Ray, I will be asking you about this. We 
are going to want to hear more details and when can we expect 
to have the award, and how are we doing with the Navy on this. 
So, yes, there will be questions.
    I am also concerned that the Coast Guard's capital planning 
has failed to adequately account for the need to recapitalize 
the Service's inland river buoy tender fleet, which operates in 
my Sacramento-San Joaquin Delta. So, we want to hear about 
that. What are we going to do about it, and when and how?
    Additionally, regarding aircraft, I remain concerned about 
the 14 C-27J surveillance aircraft. The Air Force--well, we 
won't tell you what the Air Force has done; they seem to have 
unloaded something they didn't want on the Coast Guard. I think 
we all had a piece of that puzzle. But let's hear about how 
that is coming along.
    And I remain supportive of the Coast Guard's continuing 
efforts to upgrade its fleet of 100 H-65 Dolphin helicopters. 
The unfortunate reality is the manufacturer of this aircraft 
isn't making them any more. So what are we going to do about 
this? This is a long-term program, but we better be thinking 
about it today.
    Just a few of the issues we will get into in detail. So 
thank you.
    Oh, the chairman did mention shoreside. We ought to hear 
about that, too. Thank you very much. Let's get on with it.
    Mr. Hunter. One thing I would like to talk about, too, if 
you could--a note for when you give your testimony here, coming 
up--is the Navy's budget this year produces no new ships over 
last year's budget. They are doing a strategic pause, where 
they are going to shore up a lot of their vessels that aren't 
able to fulfill--they are at, like, you know, 30 percent 
capability. They want to move those to 80 or 90 percent 
capability.
    So they didn't write in--with the President's budget, they 
didn't request any new ships over last year's budget. That is 
all going to come on in 2019, right?
    Is the Coast Guard doing the same thing? It doesn't look 
like it. It looks like you are going to keep on building and 
adding new things, like the six additional cutters that we 
authorized for CENTCOM. But I'm just curious on your take on 
that, and if you have been asked to look at doing the same 
thing that the Navy is doing, or if they are in a totally 
different place because of the overuse of their assets, and 
just having to be out all the time, and not having time to fix 
up their stuff.
    And the shoreside stuff is important, simply because it is 
something you have to do. So, I mean, it is not integral to 
your mission, but it is important to your mission. And we want 
to know how you are going to balance your operational side with 
simply having to put money into repairs and things that have 
been taking a back seat to your operational capability.
    So today we will hear testimony from Vice Admiral Charles 
Ray, Deputy Commandant for Operations with the United States 
Coast Guard; Vice Admiral Sandra Stosz, Deputy Commandant for 
Mission Support with the United States Coast Guard; Ms. Marie 
Mak, Director of Acquisition and Sourcing Management with the 
GAO; and Mr. John Acton, Chairman of the Coast Guard Affairs 
Committee with the Navy League of the United States.
    Admiral Ray, I recognize you right now for your statement.

TESTIMONY OF VICE ADMIRAL CHARLES W. RAY, DEPUTY COMMANDANT FOR 
  OPERATIONS, U.S. COAST GUARD; VICE ADMIRAL SANDRA L. STOSZ, 
DEPUTY COMMANDANT FOR MISSION SUPPORT, U.S. COAST GUARD; MARIE 
 A. MAK, DIRECTOR OF ACQUISITION AND SOURCING MANAGEMENT, U.S. 
  GOVERNMENT ACCOUNTABILITY OFFICE; AND JOHN ACTON, CHAIRMAN, 
COAST GUARD AFFAIRS COMMITTEE, NAVY LEAGUE OF THE UNITED STATES

    Admiral Ray. Good morning, Chairman Hunter, Ranking Member 
Garamendi, distinguished members of the subcommittee. It is my 
pleasure today to discuss Coast Guard operational capabilities. 
And I am pleased to testify alongside Vice Admiral Stosz. It is 
kind of unprecedented. The mission support that she represents 
is, as you know, vital to the field. I certainly appreciate the 
opinions of GAO and their recommendations, and we take those on 
board. And then Admiral Acton and the Navy League for--since 
Teddy Roosevelt they have been supporting the sea services, and 
we appreciate that.
    Mr. Chairman and all the members of the subcommittee, I 
appreciate your recognition of our Coast Guard Fellows here 
that have served you for the last few years. We need them back 
out in the fleet to get them reblued in the Coast Guard. And so 
we will take care of them, but thank you for taking care of 
them while they were here.
    On a daily basis, the men and women of the Coast Guard use 
the resources provided by the Congress to save lives, protect 
our borders, prevent terrorism, interdict drugs, and facilitate 
commerce. And as our Secretary has said on numerous occasions, 
the Coast Guard plays a vital role in border security starting 
1,500 miles south of the Rio Grande in the offshore transit 
zone, as we work to address the significant threats from 
transnational criminal networks.
    We address these threats by a force package that consists 
of, really, advanced intelligence, maritime patrol aircraft, 
advance cutters, airborne use-of-force-capable helicopters, 
Over-the-Horizon boats, and highly trained and armed boarding 
teams. And in 2016--I think most of you are aware, but it is 
worth restating--the Coast Guard interdicted more cocaine at 
sea in 2016 than all the other law enforcement agencies in our 
Nation, Federal, State, and local, combined, by doing what we 
do at sea.
    National Security Cutters and Fast Response Cutters have 
proven how effective a modernized, intelligence-driven Coast 
Guard can be. And we certainly are excited at the opportunity 
to welcome the Offshore Patrol Cutter, thanks to this 
subcommittee, into the fleet starting in 2021. We appreciate 
your continued support.
    And in addition to what we are doing now, we have got a 
well-documented surveillance gap along all of our mission set. 
But we have--and we are looking forward to embracing the 
advantages of land-based, unmanned systems moving forward. In 
fact, next week I am going to Sierra Vista, Arizona, with CBP 
[U.S. Customs and Border Protection] to look at how they are 
operating and what they are doing with those systems right now.
    As this subcommittee well knows, our Nation and our Service 
must also pay attention to our borders to the north. You all 
are well aware, from the open-source reporting, of the Russian 
and Chinese activity in the Arctic. And I would be glad to 
provide you with a classified briefing at a different time that 
goes into great detail, what they are doing up there, or what 
we assess they are doing.
    And so, to begin to address these challenges, our Nation 
needs a fleet of at least three heavy and three medium 
icebreakers, and we really appreciate the leadership of this 
subcommittee in getting that moving forward.
    Closer to home, the Coast Guard plays a vital role in 
maintaining our Nation's Maritime Transportation System: 26,000 
miles of waterways, the rivers, ports--contributes to $4.5 
trillion economic impact. Over one-quarter of a million U.S. 
jobs are all hinging on this Maritime Transportation System.
    We have got 35 Inland River Tenders that the ranking member 
referred to for everywhere from Omaha, Nebraska, to Morgan 
City, Louisiana. And those are--those ships average 52 years 
old, and it is time to start replacing them. And so we 
appreciate the downpayment we got in fiscal year 2017 of $1 
million to start that process.
    We also need more marine inspectors. And it is not just 
inspectors, it is people that do pollution response, it is 
people that do accident investigations. This river system is 
vital to our economy, and we need more marine safety folks to 
address the challenges and keep up with the pace of--because 
the Coast Guard intends to facilitate commerce and not be a 
roadblock.
    And finally, we thank you for your support for our cyber 
forces. For what you gave us in fiscal year 2017 we will put 70 
Cyber Protection Team folks on the front lines, and they are 
working this right now, problem sets both classified that we 
could talk about, another set, and the things that you all see 
in the open news. Working both .mil and .gov, so we work within 
the Department of Defense network and within our DHS.
    And then, finally, in closing, I want to thank you for your 
support by telling you a little bit about the fruits of your 
labor. A week and a half ago, I was in New York City with 
Secretary Kelly, we went aboard the Coast Guard cutter 
Hamilton. That crew had been gone for 7 of the last 10 months, 
first two patrols of what will be a 40-year career for that 
cutter, no doubt.
    And so, these men and women, I gathered with them on the 
flight deck. Most of them--you know, about 140 of them--most of 
them younger than either of my sons. They were so fired up. 
During the course of this 7 months, they sailed from New York 
to South America. They were the first U.S. asset--the first 
asset of any kind on Haiti when the earthquake came through 
last fall. They interdicted migrants in the Straits of Florida. 
They went through the Panama Canal, rescued a merchant mariner 
600 miles west of Costa Rica, saved his life. In 11 different 
instances they interdicted 19 tons of cocaine and arrested 77 
people in the transit zone. All of that on their first trip out 
of the barrel.
    And so, rest assured we are going to talk about things we 
need to do better in the Service today, and we look forward to 
having that conversation. But the resources you provide our 
Coast Guard are being put in good hands, and our men and women 
are doing great things with them.
    So I thank you for the opportunity to testify, and look 
forward to your questions. Thank you.
    Mr. Hunter. Thank you, Admiral.
    Admiral Stosz?
    Admiral Stosz. Good morning, Chairman Hunter, Ranking 
Member Garamendi, and distinguished members of the 
subcommittee. And on behalf of the Commandant and our devoted 
men and women, thank you very much for your oversight and for 
your continued strong support of the Coast Guard and our 
people.
    I am honored to share this table this morning with the GAO 
and with the Navy League, and I value our effective working 
relationship with the GAO and the strong support of the Navy 
League, and appreciate the opportunity to jointly testify with 
Ms. Mak and Rear Admiral Acton. There is a strong linkage 
between Coast Guard operations and Coast Guard mission support, 
and I am thankful to testify alongside my colleague, Admiral 
Ray.
    Thank you for the opportunity to speak about the Coast 
Guard's activities and support, our mission execution, both in 
the near term and into the future. As Deputy Commandant for 
Mission Support, I am proud to lead a talented team responsible 
for the policies and programs that equip, train, and staff our 
Coast Guard.
    My organization is responsible for human resources and 
personnel readiness, acquisitions and contracting, engineering 
and logistics, shore infrastructure, security, and the 
information systems and networks that enable Coast Guard 
operations in support of the Commandant's strategic intent and 
priorities.
    And consistent with those priorities, the Coast Guard is 
undergoing a critical transformation through the necessary 
recapitalization and modernization of our fleet of cutters, 
patrol boats, aircraft, information, and shore infrastructure.
    We are committed to excellence in our acquisition programs, 
and I am pleased to report that our last five Fast Response 
Cutters to be delivered were delivered with zero production 
deficiencies. And last year, when we awarded the offshore 
patrol contract, that largest contract in history, that was 
awarded without protest.
    So mission support is a business. And, as such, we are 
committed to the affordability and continuous improvement. We 
utilize a mission support business model that employs the four 
cornerstones of total asset visibility, configuration 
management, product line management, and bi-level maintenance 
to drive down costs and increase operational availability.
    And, in fact, as I speak this morning, there are 50-year-
old Coast Guard cutters that have deployed from their home 
ports on the east coast of our country, down through the 
Caribbean, through the Panama Canal, and are serving in the 
eastern Pacific Ocean, conducting missions like Admiral Ray 
just described. And they are 50 years old. And that is the 
power of the mission support business model.
    And to that end, sir, I will be happy to take questions on 
the Coast Guard maintenance philosophy, and how that allows us 
to continue to drive these ships down to the 50-year age mark 
and keep them running while we are acquiring new ships.
    One of my top priorities is moving our new ships and 
aircraft successfully from acquisition to sustainment. By 
investing in planned, depot-level maintenance, we have more 
than doubled the service life of most of our cutters and 
aircraft, fully optimizing our scarce resources. And beyond 
ships and aircraft, we must invest in our shore infrastructure 
and our IT networks--that is something we haven't talked as 
much about--to enable operations and support functions to 
ensure security of our facilities, and to provide safe work 
environments for our people.
    And, speaking of our people, they are absolutely the most 
valuable asset of all. And we don't speak about them enough. 
But thanks for calling out the three people who are working for 
you who will be moving on. We must invest in talent management, 
the recruiting, the training, and retaining of a diverse 
professional workforce with the knowledge, skills, and 
abilities to give our Service the competitive advantage that we 
need to perform our many missions and keep our Nation safe and 
secure.
    In closing, I am pleased that this subcommittee understands 
that the 21st-century infrastructure and transportation network 
for America includes a vibrant and efficient Maritime 
Transportation System, and that a well-equipped and resourced 
Coast Guard is essential to ensure our prosperity in national 
security.
    And thank you very much for the opportunity to testify. I 
look forward to your questions.
    Mr. Hunter. Thank you, Admiral.
    Ms. Mak?
    Ms. Mak. Good morning, Chairman Hunter, Ranking Member 
Garamendi, and members of the subcommittee. Thank you for 
inviting me here today to discuss GAO's body of work on the 
Coast Guard's recapitalization efforts.
    Since the Coast Guard took over the role as lead systems 
integrator in 2007 to recapitalize the surface, air, and 
information technology assets, we have recognized that it has 
made great strides in its investments. For example, it has 
established individual acquisition program baselines for each 
of its new assets.
    However, as the Coast Guard moves forward in managing this 
multibillion-dollar acquisition portfolio to modernize its 
aging assets, the Coast Guard is facing several key challenges. 
The two areas that I would like to highlight today are, first, 
the impact of increased depot maintenance and equipment issues 
for some of the new assets on operational availability; and, 
second, the overall affordability of its acquisition portfolio.
    It is widely recognized that the National Security Cutter, 
the NSCs, and the Fast Response Cutters, the FRCs, are more 
capable than the assets that they are replacing. And they are 
contributing toward mission success. For example, the FRC and 
the NSC have greater fuel capacity and better handling, which 
improve endurance and effectiveness, and have led to an 
increase in drug interdictions.
    However, we found in March of this year that these assets 
have not been meeting their minimum availability rates, 
resulting in lost operational days. This is due to an increase 
in depot maintenance needed to correct equipment and design 
problems. The engines for both of these cutters have been 
problematic, despite ongoing efforts by the Coast Guard.
    For example, the NSC's engines overheat in waters above 74 
degrees, which makes up a significant portion of the NSC's 
operating area, given that they are intended to be deployed 
worldwide.
    The FRC has also experienced engine problems, requiring 20 
engines to be replaced throughout the fleet. Fortunately, the 
cost of these replacements was covered by the FRC's contract 
warranty. Until these issues are resolved, operations will 
likely continue to be negatively impacted.
    Second, we have consistently reported concerns about the 
affordability of the Coast Guard's acquisition portfolio. While 
the Coast Guard is in the process of developing a long-term 
acquisition strategy, it continues to use its annual budget 
requests as its primary strategic planning tool to manage its 
major acquisitions.
    Since 2014, we have found that there are funding gaps 
between what the Coast Guard estimates it needs and what it 
traditionally requests and receives. The affordability of the 
Coast Guard's portfolio will only worsen once it starts funding 
the Offshore Patrol Cutter [OPC]. The OPC will absorb anywhere 
from half to about two-thirds of the Coast Guard's acquisition 
funding annually, beginning in 2018 through 2032, while it is 
being built.
    One of the most critical challenges the Coast Guard faces 
is the gap between the expected service life of its Medium 
Endurance Cutter fleet and the OPCs, the first of which is 
expected to be delivered in 2021. To address this gap, the 
Coast Guard must use limited acquisition dollars to extend the 
service life of the 270-foot Medium Endurance Cutter fleet at 
the same time it is building and procuring the OPCs.
    During the same period, the Coast Guard must also 
recapitalize other assets, such as the polar icebreaker and its 
fleet of river buoy tenders, as these assets continue to age 
beyond their expected service lives, and in some cases have 
been removed from service without a replacement.
    For instance, the Coast Guard is currently operating one 
heavy polar icebreaker since the Polar Sea has been removed 
from service. Plans are underway to develop a new fleet of 
heavy icebreakers, but there is no formal cost estimate for 
that acquisition program at this time.
    The Coast Guard faces some difficult and complex decisions 
with potentially significant cost and mission implications. As 
we have previously recommended, the Coast Guard needs a plan to 
identify affordable priorities with realistic tradeoffs, and 
communicate where gaps exist, so that funding decisions align 
with the priorities to enable long-term mission success.
    Efforts are underway to address this issue through the 
development of a 20-year Capital Investment Plan intended to 
identify all acquisitions necessary for maintaining at least 
its current level of service and the fiscal resources necessary 
to build these assets. But to date, efforts by DHS and the 
Coast Guard have not led to the difficult tradeoff decisions 
needed to begin addressing the long-term affordability of its 
portfolio.
    Chairman Hunter, Ranking Member Garamendi, members of the 
subcommittee, this completes my prepared statement. I would be 
pleased to respond to any questions that you may have. Thank 
you.
    Mr. Hunter. Thank you, Ms. Mak, and perfect timing.
    Mr. Acton, you are recognized.
    Mr. Acton. Chairman Hunter, Ranking Member Garamendi, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today. I request that my full written 
testimony be entered into the record.
    This committee has long been one of the greatest champions 
of the Coast Guard, and the Navy League is very appreciative of 
your leadership. The Navy League is the foremost citizens' 
organization to support all the sea services, including the 
Coast Guard.
    It is a privilege to be here today to talk about the Coast 
Guard's capabilities and how they contribute to the 
administration's pledge to invest in American infrastructure. 
We are a maritime Nation that benefits from global trade, and 
investments in the associated infrastructure have been crucial 
to our prosperity.
    The Coast Guard safeguards this free and safe movement of 
goods so key to our national welfare. With only 40,000 Active 
Duty servicemembers and a budget that averages around $10 
billion, the Coast Guard does far more to safeguard our 
national security than its size would suggest.
    The Coast Guard's unique role in safeguarding our national 
infrastructure includes a wide spectrum of responsibilities, 
including port security, safety of navigation, and coastal 
homeland security. Yet, from the Navy League's perspective, the 
Coast Guard itself is a key part of our integrated 
infrastructure, part of what makes our national prosperity 
possible, and one crucial to our homeland security and our way 
of life.
    The Coast Guard protects our maritime sovereignty and 
borders from illegal activity. It fights terrorism off our 
coast. It inspects ports, both here and abroad, and ensures 
mariners on our waterways are safe, and that the waterways are 
navigable. It ensures the integrity of our exclusive economic 
zone, and protects the cyber vulnerabilities in our Maritime 
Transportation System. The Coast Guard is always there, 
providing an environment in which America can thrive.
    Yet to truly invest in American infrastructure, we must 
invest in the Coast Guard and its people. Two of the 
administration's biggest pledges directly affect the Coast 
Guard: strengthening our military and investing in our 
infrastructure. Investment in Coast Guard assets, including the 
recapitalization of its fleet, has already led to some notable 
successes, like the National Security Cutter and the Fast 
Response Cutter. Yet the Coast Guard needs greater investment 
to build a 21st-century infrastructure for America.
    The Navy League recommends, first, procuring six Fast 
Response Cutters per year; second, a steady acquisition, 
construction, and improvements, or AC&I, budget of $2 billion 
per year; third, to fulfill its challenging mission in the 
Arctic frontier, the Coast Guard needs three heavy and three 
medium icebreakers; and finally, and perhaps most critically, 
an additional $750 million in fiscal year 2018 funding to meet 
the 2020 icebreaker production goal.
    The Coast Guard faces a $1.6 billion shore infrastructure 
backlog that is being paid off too slowly, increasing 
operational costs and risks. The Coast Guard does much with 
little, but a real investment in this part of American 
infrastructure would be beneficial to all.
    The proposed Presidential budget breaks its promise to this 
military service at a time when the Coast Guard is under 
strain, overextended, and underfunded. This budget proposal 
would hamper a Service already operating on a shoestring. The 
Coast Guard suffers from the same readiness crisis facing our 
other military services, including recruiting challenges, 
needed maintenance funding, and dollars for such basic needs as 
fuel.
    Unfortunately, the operational funds needed to keep pace 
with recapitalization have remained flat. Without investing in 
operational funds for things like fuel, spares, training, and 
manning, these recapitalization investments will be 
underutilized. To fully fund costs under a flat-lined 
operations budget, the Coast Guard has had to make reductions 
elsewhere, ones that affect its people.
    The Coast Guard will always put its mission operations 
before all else, without complaint. It is just part of their 
organizational DNA. But we are seeing the impacts of reduced 
operational funding.
    Navy League councils in the field have relayed stories of 
unit galleys closing and the opening of needed child 
development centers postponed. We know about reductions in 
training centers and tuition assistance, the cancellation of 
educational services officer program, reduction in medical 
benefits, and fewer TRICARE medical advisors and health 
promotion coordinators.
    Individually, these may not cause anyone to rethink their 
service, but they add up. At a time when the Service needs to 
grow by 5,000 people, and the Coast Guard needs to invest in 
its people through programs like these, it instead is forced to 
make difficult tradeoffs to ensure mission execution.
    The Navy League would like to thank this committee for its 
bipartisan leadership, and thank Congress for ensuring that 
this underfunded and vitally important military service has the 
needed resources.
    These are critical strategic investments, investments not 
just in the Coast Guard, but in our national security and 
safety, in our environment and economy, and in our maritime 
infrastructure.
    These are investments in our national sovereignty. Thank 
you.
    Mr. Hunter. Thank you, Mr. Acton. Because we actually have 
some people here today, which is kind of fun, I am going to 
recognize Mr. Mast first.
    Mr. Mast. Appreciate it, Chairman.
    Hey, I got a couple of quick questions for you. I am going 
to start with you, Admiral Stosz. I appreciate the testimony 
from all of you. One kind of general, and then one a little bit 
more pinpointed to south Florida.
    I know you all are mission-first. I love it, Semper 
Paratus. I love everything about it. I got to connect with my 
Coasties down in Fort Pierce. They took me out on the water. 
And, you know, anybody that spends time on the water, we know 
how maintenance-intensive it is, anything that operates on 
saltwater on a daily basis.
    So what I want to get to is the force that you have that is 
conducting day-to-day maintenance out there. How much of the 
actual force of the Coast Guard is dedicated to maintenance, to 
keeping everything running? And are they having the resources 
that they need? I am talking about in the minutiae of it, to 
keep the engines going, to keep--you know, to keep the things 
moving, keep it afloat. Can you give me a little bit more 
specific picture of what that looks like?
    Admiral Stosz. Yes, sir. So we have--part of the mission 
support business model is our operational and our depot-level 
maintenance.
    So what you are seeing out there at the station is your 
operational-level maintenance, where those are funded locally, 
those are operational personnel that belong to the area 
commander, the district commanders. And I do the depot-level 
maintenance, my people up at--when those boats come in for 
overhauls. Even the small boats come in for what we call 
sometimes cutter boat pooling. We will bring those together, 
bring them back into a depot where we can strip them down and 
give them back to the operators.
    And we are deferring maintenance on both sides of--the 
operational and the depot level. But what we try to do is make 
sure we are funding the depot level, so that we are not 
repairing problems that happen on the spot. We don't want that 
cutter, that boat, to be out there and stopped in the water 
with an engine problem.
    So we are making sure that we get the depot maintenance to 
keep its engines going. And then the people at the optional 
end, they normally have--much of the resources they need, it is 
more at the depot level that we need to make sure we have the 
resources. And we are looking at the backlogs.
    Mr. Mast. What does that deferment look like, in terms of 
your operational capability and drug interdiction, in terms of 
life-saving capability? What does that, literally, look like 
when you talk about that deferment?
    Admiral Stosz. So the deferment at the depot level, what 
that does is it just slides those availabilities--sometimes the 
service life extensions that you see on the--this is more for 
the cutters--they will have to be slid to the right. And we 
should do those earlier, in order to save ourselves on the 
maintenance, because it just costs more money to maintain if 
you don't do the depot level, and you have got to put them into 
the operational--put more money into them, operationally, 
instead of doing the depot work that will get them ready for--
back to sea again.
    Mr. Mast. Well, thank you. Thanks for helping me understand 
that a little bit. I know it is important, because they are 
never going to take the--make the mission lighter for you. It 
is always going to continue. But you have to have the 
appropriate resources to go out there and do it.
    I want to just focus a little bit also on Port Everglades. 
I just want to make sure, because it's down there in my area, 
and I wanted to ask you all. Are you having the appropriate 
amount of communication, with all of the infrastructure that is 
going on, surrounding the expansion of Port Everglades? I know 
we have to move around one of your stations down there. Is 
there anything that we need to know about impact on operations, 
anything that you want to address on that front, now that you 
have us here?
    Admiral Stosz. Sir, I will just say, from my side, the 
civil engineers who work for me are working closely with the 
Army Corps of Engineers, and we don't have any concerns. We are 
monitoring that with them, and we are--I would defer to my 
colleague on anything operational, but we are set with the 
actual move.
    Admiral Ray. Sir, you are aware, since you have been there, 
about how operationally important--that is a Seventh District 
unit, and that is the busiest district, you know, last year I 
think 5,000 lives saved in that district alone, and hundreds of 
law enforcement cases.
    So we are tracking, we understand the importance of the 
moves, and we have got plans in place to maintain operational 
capability. So thanks for keeping up with it.
    Mr. Mast. Outstanding. I appreciate your testimony, again, 
and I yield back the balance of my time, Chairman.
    Mr. Hunter. I thank the gentleman. Mr. Garamendi is 
recognized.
    Mr. Garamendi. Mr. Chairman, I am going to take up an issue 
that is extremely important to the minority, both in the 
overall Transportation and Infrastructure Committee, as well as 
in other committees. And if you will indulge me to do this--and 
this is for Admiral Ray and the background.
    One of the essential functions of this committee is to 
exercise oversight of the executive branch agencies over which 
we have legislative jurisdiction. Thorough oversight is 
required for Congress and this committee to develop effective 
legislation that benefits the American taxpayers and meets our 
security requirements.
    It has come to our attention that the Trump administration, 
in an opinion from the Office of Legal Counsel, has determined 
that only--only--the chairman of the committee or subcommittee 
of jurisdiction may exercise the oversight functions of that 
committee.
    Further, the opinion instructs that an agency should not 
consider an oversight request from any other Member of 
Congress, including the ranking member of the committee or 
subcommittee with jurisdiction as an inquiry requiring a 
response. It states that the agency may exercise its own 
discretion in determining whether to respond to these inquiries 
from the minority.
    Therefore, Admiral Ray, is it the policy of the Coast Guard 
to respond substantively to oversight inquiries made by the 
ranking member of this committee or subcommittee?
    Admiral Ray. Sir, I am not familiar with the policy that 
you refer to, but I am familiar with our practice in the 
Service of responding to subcommittees and committees. And we 
pride ourselves on being responsive. And we have a team of 
folks here that you recognize, three of them today. They make 
sure we get the questions, and then they make sure that we get 
the answers back. And we have processes for that.
    I am not aware of any way that we separate the questions, 
depending on the words. And if they come from the Congress, we 
are making every attempt to answer.
    Mr. Garamendi. I need not expand further how important I 
believe this issue is. Apparently, the Office of Legal Counsel 
leaves it to the discretion of the agency. And I am pleased to 
hear that, as of now, your exercise of that discretion would 
allow the minority questions to be answered. Is that correct?
    Admiral Ray. Yes, sir.
    Mr. Garamendi. Thank you. Then let me move on.
    Ms. Mak, thank you for your testimony. In its fullness, you 
seem to be stating that the current budget and appropriations 
for the Coast Guard significantly understates the requirements 
that the Coast Guard has to meet its obligations. Is that 
correct?
    Ms. Mak. Absolutely, sir. The budget does not reflect 
reality. For example, if you look at the President's 2018 
budget request, the OPCs cost almost half a billion dollars, 
almost half of the acquisition budget. The FRCs, almost a 
quarter of the acquisition budget. So that leaves you a quarter 
left. That does not address the 10th NSC, the FRC plus-ups, the 
icebreakers, the service life extension for the Medium 
Endurance Cutters, or the shore infrastructure, which we have 
already said is $1.6 billion, in terms of backlog.
    Mr. Garamendi. Have you developed the amount of money that 
would be necessary to meet those requirements?
    Ms. Mak. No, that is where we believe that the Coast Guard 
needs to develop their 20-year plan with the strategies, with 
the assets that they need to meet their missions, and the cost 
that is required, before tradeoffs can begin to be discussed.
    Mr. Garamendi. Thank you for that setup.
    Now, Admiral Ray?
    [Laughter]
    Admiral Ray. Sir, as our Commandant has stated, recently 
before this subcommittee we have established the program of 
record for the assets that we need, whether it is National 
Security Cutters, Offshore Patrol Cutters, icebreakers, and 
various other assets. And to kind of summarize it, he stated 
repeatedly--and we believe it puts us in good shape--to have--
we need to get our--the growth of our operations and 
maintenance budget, our daily O&M budget that we do to do 
operations, to be at least 5 percent per year.
    That is something we haven't obtained. We have had a net 
10-percent reduction in purchase power, or buying power of our 
O&M budgets, since 2010. We need a $2 billion predictable 
recurring AC&I budget to do acquisition.
    Mr. Garamendi. The setup question by Ms. Mak wasn't 
completely answered. So let me put it to you directly. I think 
it is the responsibility of this committee--and I am almost 
certain that the chairman would agree--that we need to have a 
long-term vision, and we need to prepare the Coast Guard for 
its current and future tasks.
    In order for that to be done, the Congress must exercise 
its authority and responsibilities to set the pace and to 
provide the money. We have not done so. In order for us to do 
so, we need to have from the Coast Guard your full requirements 
for funding to meet the program that is of record.
    Therefore--and I will work this out with the chairman, so 
that we could both ask the question for you to develop for us 
the money necessary, year by year going forward, to fully 
address the requirements of the Coast Guard--we are talking 
acquisition budget here--so that 20 years looking out there, 
which Ms. Mak just discussed.
    Also, Mr. Acton, in your testimony, you made a very 
forceful statement about the needs--it seems to me that it is 
time for us to fully fund the requirements of the Coast Guard 
in every way. And all of the acquisition programs, the program 
of record in its fullness, so that we know what it is the 
requirements are. We may or may not be able to meet that, but 
our task is one of making choices.
    I said earlier in my view the Coast Guard is the wall. I 
believe we have some $2 billion that is going to be added to 
the ongoing physical wall on the terrestrial side. So we need 
to make a choice. Could we move $2 billion from the terrestrial 
wall to the water? What would that do for the Coast Guard?
    So, anyway, help us with this. And I would like to work 
with the chairman to put forth a request for the full funding 
over the next 20 years, year by year, to meet the full 
requirements, as Ms. Mak has stated it. So, with that, I yield 
back.
    Thank you, Mr. Chairman, for the extra time.
    Mr. Hunter. I thank the ranking member. And once again, we 
are just happy to have people here. So I am going to recognize 
the gentleman from Louisiana, Mr. Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Admiral Ray, I would love to talk to you a little bit about 
acquisition strategy. And I think that, under Congressman 
Mast's questions earlier, you guys covered this a bit.
    But there is this perception out there in Congress and in 
the public that spending Federal money is, effectively, a waste 
of money and causes deficits and things along those lines. 
Could you talk a little bit about your experiences, through the 
investment of the FRC and the NSC, and how that program is 
actually performing, in terms of the financial return on 
investment, compared to your legacy equipment?
    Admiral Ray. Yes, sir. I can, and the--I have had quite a 
bit of interaction in a security cutter fleet from my time in 
the Pacific area, where I served before this. And the 
effectiveness of those assets on patrol, whether in the Bering 
Sea, whether the approaches between South America and Central 
America, their ability to stay on station, seakeeping, the 
capability they have for intelligence, which--we should really 
have a separate classified briefing on that--it is 
foundationally different than how we have done business in the 
past.
    There are cutters that are getting underway right now--and 
the--specifically, National Security Cutters. While we are 
certainly proud of our 50-year-old, 210-foot cutters that are 
doing great service, the return on investment for a National 
Security Cutter patrol, the amount of seizures they get, the 
amount of intelligence they process, and their contribution to 
attack in these transnational criminal organizations is without 
question. There is no question of the effectiveness.
    With regards to the Fast Response Cutters, we are pushing 
them further downrange. We are pushing Fast Response Cutters 
with a crew of 25 people all the way down to the shores of 
South America, along the Leeward Islands. And the 
effectiveness--and these are crews that we would--that is a 
long ways for a patrol boat to go.
    And the effectiveness they have, whether they are 
communications--we just had a seizure off the coast of 
Martinique, and the patrol boat skipper wrote back specifically 
talking about the C4IT system that is on board that Fast 
Response Cutter, and how he couldn't have done--couldn't have 
found the bad guy, couldn't have caught him, and couldn't have 
processed him without the systems that are on there.
    I could go on and on, sir, but that is the answer.
    Mr. Graves of Louisiana. So you are seeing better 
performance, you are seeing better return, in terms of your 
ability to perform your mission. And what about O&M costs, are 
you seeing an O&M cost comparison that you could comment on?
    Admiral Ray. Yes, sir. The O&M costs are higher than they 
were with our previous assets, and that is one of the reasons 
our Commandant has gone on record saying we need at least 5 
percent growth in the just planning factor for O&M costs per 
annum.
    Mr. Graves of Louisiana. Well, actually, let me follow up 
on something you said. You made mention of your Pacific forces 
in Southwest Asia, the work you are doing with DoD over there. 
Have you received any indication, any signal from DoD about 
your continued presence, the need for the Coast Guard's 
continued presence in that area?
    Admiral Ray. You referring to the South China Sea, sir, 
East China Sea, that area?
    Mr. Graves of Louisiana. Yes, yes.
    Admiral Ray. We have been in conversations with the 
Department of Defense. Unfortunately, several of those are 
classified, in terms of our contribution. We have a 
longstanding recurring relationship with the Department of 
Defense, so we are interoperable. Primarily, National Security 
Cutters, once again.
    So yes, sir, we have been in communications on that. We 
don't have any units deployed there, as of right now.
    Mr. Graves of Louisiana. Do you think that, under the 
contract you have right now for FRC, that you have sufficient 
flexibility to provide adequate hulls for presence that you are 
providing right now in the Pacific theater?
    Admiral Ray. We have got a capacity challenge right now, 
sir, so we can't get those assets out there fast enough. And, 
thanks to this subcommittee, we are turning the corner on the 
FRCs with this year's budget. So it is--the capability is not 
in question, it is a capacity challenge.
    Mr. Graves of Louisiana. OK. Switching gears a little bit 
into navigation. While I think there is a lot more attention to 
OPC, FRC, NSC, which I understand, a little bit sexier vessels, 
some of your inland waterways and some of your buoy tenders--if 
we are talking about 21st-century infrastructure, can you talk 
a little bit about your existing assets that, in many cases, 
are 50, 70 years old that are carrying out those inland 
waterway missions, and how you think those assets are able to 
perform in a 21st-century environment, as we work to help to 
improve the infrastructure in an inland waterway system?
    And talk a little bit about your strategy for replacing 
those.
    Admiral Ray. Yes, sir. With the assistance of this 
subcommittee, for the first time ever in fiscal year 2017, you 
know, we have got $1 million to do the analysis on the--kind of 
start the program, moving it forward, because they need to be 
replaced.
    There are some changes in technology that will probably 
work on the margins for this 35-ship fleet that are, literally, 
all over the heartland, from Omaha, as I said, Oak Island, 
North Carolina, down to Morgan City, and everywhere in between. 
And so, we will work on the margins, some modern technology.
    But at the end of the day, the river changes--as you know, 
when the river changes and goes up and down there is really not 
much substitute for a boat--own station planting those buoys so 
when you have got a barge coming down that is four wide and 
seven long moving grain and petroleum products out of the 
heartland--and that is our competitive advantage, as a Nation, 
is that river system--and you got to have buoys on the water to 
do that. And there is no way to do it except the way we have 
been doing it. And so, those vessels need to be replaced.
    Mr. Graves of Louisiana. Well, just as a--I think important 
to this subcommittee, if the Coast Guard could help convey a 
comprehensive strategy, acquisition strategy for us, I think it 
would be very helpful in us being able to help you, in terms of 
upgrading some of those assets that I think are needed if we 
are truly looking at 21st-century capabilities.
    Let me just clarify. Certainly South and East China, 
important, but I think you have an ongoing mission--I am going 
to have this roll off the tongue--PATFORSWA [Patrol Forces 
Southwest Asia]--did I do that right? All right. Where you have 
a presence in Bahrain and other areas. And I think that also 
applies to having a presence of NSC and FRC in those areas. So 
I just wanted to clarify that.
    Thank you, I yield back.
    Mr. Hunter. I thank the gentleman. Mr. Larsen is 
recognized.
    Mr. Larsen. Thank you. Thanks, Mr. Chairman.
    Admirals--you can choose to answer this--about shoreside 
infrastructure, where this year's budget reflects about a 93-
percent cut in shoreside infrastructure facilities, aids to 
navigation, and housing.
    So, if we enact the budget as-is, it will be impossible for 
the Coast Guard to address the current $460 million backlog in 
shoreside infrastructure that you have prioritized. So I am 
just wondering how shoreside infrastructure fits into your 
priorities if we are sending folks off on state-of-the-art 
platforms and coming home to infrastructure that is, literally, 
falling apart in some places.
    How can we always be--how can you always be ready, if that 
is the case? Can you try to address that for me?
    Admiral Stosz. Yes, sir. I am happy to do that. So 
investing in shore infrastructure is one of my top priorities. 
Rebuilding, I am--the Coast Guard's crumbling buildings, 
training centers, our classrooms and our barracks, our housing, 
our shoreside facilities like our piers and our boat lift 
facilities and our covered moorings, those aren't just good for 
the Coast Guard. That is good for America, because that creates 
construction jobs in communities across the Nation. So I am 
passionate about reinvesting in our infrastructure.
    As you know, we have had to make the tough tradeoff 
decisions over the years of decremental budget environments. 
And often, shore was where we made that tradeoff, as we wanted 
to keep production lines running with the capital assets we 
have been talking about thus far.
    Now, you have heard the Commandant say we need to rebuild 
and repair and modernize the Coast Guard, invest in our 
modernization, invest in our infrastructure. We do have a $1.6 
billion backlog in our shore construction account, and a $700 
million backlog in our maintenance account. And what we need to 
do to get at that is we need to have a $2 billion CIP, Capital 
Investment Plan.
    Mr. Larsen. Right.
    Admiral Stosz. We need to have the 5-percent O&M funding 
per year that is going to get at that $700 million backlog and 
continue the maintenance we need to do, the preventative 
maintenance that has to keep these assets available, because 
they are what support our operations and our people. Not just 
the operations----
    Mr. Larsen. So----
    Admiral Stosz [continuing]. But the people that run them.
    Mr. Larsen. So it sounds like you have not only run the 
numbers that we see today, but you have run the numbers out 5 
to 10 years to play catchup, as well.
    So, if that is the case, then how are these tough tradeoffs 
being made, knowing full well that the end result is that we 
have shoreside facilities that are really not in a position to 
support all these great new platforms? And they are great, and 
they will be new, these great new platforms that they are 
supposed to support. What discussion is taking place inside the 
Coast Guard, inside DHS, and inside OMB on this?
    Admiral Stosz. Yes, sir. Thank you for the question. And I 
want to thank the Congress for supporting our major acquisition 
shore infrastructure funding. That gets tied to our new ships 
and aircraft, and that has been funded. So you will see, when 
we have a home port, where we are clustering our cutters, we 
are getting the money--and that is usually tens of millions of 
dollars per port--to build out that infrastructure. So we are 
doing that.
    What is--and we are rebuilding from hurricanes. Thank you 
for the $15 million downpayment on our $90 million damage 
assessment for Hurricane Matthew.
    Mr. Larsen. Yes.
    Admiral Stosz. But it is the other routine recurring--our 
training centers, the other facilities that fall into the 
backlog that--there isn't any room left at the table, once you 
have funded all that, and then you have looked at those--like I 
said, the production lines always trump the infrastructure 
that--we say we can get at that tomorrow. And we are waiting 
for that day, and that is why we need the $2 billion CIP.
    Mr. Larsen. Yes. Again, I don't know which one of you 
will--can answer this, but on the OPC timelines--and this is 
sort of the opposite of the discussion we just had, sort of 
this discussion about where you put your money. Even with 
service life extension providing up to 15 additional years to 
the existing Medium Endurance Cutter fleet, you are looking at 
anywhere from a 2- to 5-year gap for your OPC replacement for 
your nearly--your nearly 1-to-1 replacement.
    So, does that mean we--are we anticipating seeing service 
life extensions going 17 years to 20 years, or are we going to 
accept a gap on those replacement timelines?
    Admiral Stosz. Congressman, what we are going to do on 
there is--you see that chart that GAO submitted?
    Mr. Larsen. Yes.
    Admiral Stosz. It is a great chart. There is only about a 
2- to 5-year gap, as you said.
    Mr. Larsen. Right, depending on the----
    Admiral Stosz. Yes, sir.
    Mr. Larsen [continuing]. Open sea, right, yes.
    Admiral Stosz. When they come off their service life. And, 
well, we do love those 50-year-old cutters. So if we stretch 
those to 50 years, we will be able to close that gap, sir. So 
we do plan on making sure those cutters, those 270-foot 
cutters, last until the Offshore Patrol Cutters come online.
    Mr. Larsen. So, I am sorry, are you saying that your plan, 
then, is not to allow those gaps?
    Admiral Stosz. No, sir, we are not going to allow those 
gaps.
    Mr. Larsen. Is that right? OK. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman. I would now like to 
recognize Mr. Lewis from Minnesota, the vice chairman of the 
subcommittee.
    Mr. Lewis. Thank you, Mr. Chairman, and thank everyone for 
coming today, and your presence here. I want to talk a little 
bit about the administration's proposal and prioritization and 
everything we are supposed to do here.
    Ms. Mak, you had mentioned that the administration's 
proposal for the Offshore Patrol Cutter as well as the Fast 
Response Cutters amount to about 75 percent of the budget. 
There are, right now, two icebreakers that get a lot of 
attention, the Arctic icebreakers.
    But there is quite a bit of commerce in the Great Lakes 
region, my part of the country, and we need to make certain 
that those shipping lanes remain open during the very, very 
harsh winters there in the Great Lakes. Third largest economy 
in the world, with a GDP over $5.7 trillion. Much of this--this 
is our economy--much of it travels on the Great Lakes, 160 
million tons of waterborne cargo transported on the Great 
Lakes.
    I know that at one point--I believe it was in the 
Appropriations Act of last year--we had--or maybe it was 2 
years ago, 2016--we had about $2 million for the survey and 
design work associated with icebreaking capacity in the Great 
Lakes. Now we have got one heavy and one medium, Arctic-wise. 
Where are we for the Coast Guard's plan on funding those 
icebreakers in the Great Lakes right now?
    Ms. Mak, we will start with you.
    Ms. Mak. Thank you, sir. Right now I believe we have a team 
that is actually doing work for this subcommittee on the heavy 
icebreakers, and is about to report out in the next week or 
two. But the concerns we have with the heavy icebreakers 
generally, if there is pressure--if funding is made available 
earlier, there may be pressure to make decisions earlier. And 
that would mean sometimes making decisions without all complete 
knowledge.
    And we have done plenty of work in GAO to show when 
decisions are made, procurement decisions are made without all 
the available knowledge, there is definitely an increase in 
costs, changes during the contract performance and schedule 
delays at that point.
    So broadly, I would also say that there is some concerns 
with the heavy icebreaker, in terms of who is going to be 
managing that acquisition process. Is it DHS or is it the Navy? 
Who has oversight of that program? Who has oversight of the 
contracting? And who has final say of the requirements, 
depending on who has oversight of the contracting? Those are 
some of our broad concerns when it comes to heavy icebreakers.
    Mr. Lewis. Is it a matter of additional resources or 
organizational control that you allude? I mean what is our 
fleet capability right now for icebreaking missions in the 
Great Lakes?
    Ms. Mak. I would defer that question to the Coast Guard for 
what their actual capabilities are.
    Mr. Lewis. Go ahead, Vice Admiral Ray.
    Admiral Ray. Sir, as you know, we have got Coast Guard 
cutter Mackinaw, important, in the Great Lakes, and we have got 
a fleet of 140-foot icebreakers which are going through a 
service life extension right now.
    We performed an analysis that was delivered to the Congress 
in 2016 about the requirements for additional icebreaking 
capability, and we haven't moved forward since then, in terms 
of additional capability, because our assessment is that the 
priority is for this other Arctic and Antarctic icebreaking 
capability, and--when you compare things in the balance.
    So, our plan right now is to address the Great Lakes 
icebreaking requirements with the Mackinaw and the 140s. And 
Admiral Stosz could talk about the service life extension on 
those 140s--and she was the commanding officer of one of them, 
and so the--kind of the effectiveness of those.
    Mr. Lewis. Admiral Stosz, please.
    Admiral Stosz. Sir, absolutely. We have the survey and 
design money to look at the new--a new icebreaker for the Great 
Lakes, the GLIB [Great Lakes icebreaker] style, as opposed to 
the 140 style. So we have that money. We are using that to look 
into the initial design and surveying, what we would need to do 
to replace that. So that is still in progress, sir. We don't 
have any report on that yet.
    Mr. Lewis. But to Ms. Mak's point--or suggestion, anyway--
are there enough resources, once the survey and design is done, 
to move forward in a relatively timely manner?
    Admiral Stosz. Sir, we are not even sure we need to move 
forward with that construction at this point, because we are 
extending the service life of those 140-footers. And we--and 
the GLIB is still fairly new, as Coast Guard standards go.
    Mr. Lewis. So you think you are mission-capable?
    Admiral Stosz. I would defer the mission-capable to Admiral 
Ray.
    Admiral Ray. Yes, sir. Yes, sir. I mean we had some--
obviously, 2014 and 2015 were tough ice years on the lakes. To 
mitigate that in the current state of affairs we have got 
memorandums of agreement with the Canadians to share assets, 
and that is how we would get after it in the near term.
    Mr. Lewis. All right. Thank you. I yield back.
    Mr. Hunter. I thank the gentleman.
    Mr. Garamendi, I yield to him, and----
    Mr. Garamendi. Mr. Chairman, you and I have had a little 
discussion here. I would like you to pick up the next point, 
and then I will take my turn after you.
    Mr. Hunter. So thank you very much. And thanks to all the 
Members who came to the subcommittee hearing, again.
    I guess the first question I have is where is your--where 
is the 20-year CIP? Where is the 5-year Capital Investment 
Plan?
    Admiral Stosz. Mr. Chairman, thank you for the question. So 
the 5-year Capital Investment Plan is under development, and 
the 20-year plan needs to----
    Mr. Hunter. When is the 5-year Capital Investment Plan due?
    Admiral Stosz. That is--sir, we submit that----
    Mr. Hunter. When you make your budget request, right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. You have already made your budget requests, 
though, right?
    Admiral Stosz. And because the budget year, sir, is a bit 
different this year with the change of administration, we are 
submitting the CIP--we are developing and submitting that up 
through the review process, sir. And that 5-year CIP, when we 
get that, we can then build on the 20-year CIP.
    We owe the 20-year CIP. We are--we want to--we know we need 
to submit that 20-year CIP. So that is all in progress right 
now, sir.
    Mr. Hunter. Because we are looking at all this stuff, but 
this stuff doesn't make any sense if you don't have a 20-year 
plan. If you don't have a long-term plan, this is just pie in 
the sky, right?
    Admiral Stosz. Yes, sir. And we know the Auth Act in 2015 
directed us to submit that 20-year CIP, and we are working on 
that, sir.
    Mr. Hunter. Could you tell me explicitly what is the holdup 
on the 5-year plan, due to change in administration? How would 
that affect what the Coast Guard needs to operate?
    Admiral Stosz. It----
    Mr. Hunter. No matter who the President is.
    Admiral Stosz. It needs to go through a review. So we need 
to go through the process and the steps and submission of that 
CIP.
    Mr. Hunter. Submission, it is going to be reviewed by OMB?
    Admiral Stosz. Yes, sir. It goes up the chain.
    Mr. Hunter. OK. OMB, who proposed to cut you by $1.3 
billion, and your CIP has to go through them before we get to 
see it? So we get the scrubbed version, not necessarily what 
the Coast Guard really needs 5 or 20 years out?
    Admiral Stosz. That is the process we follow, sir.
    Mr. Hunter. OK.
    Mr. Garamendi. Look at the law.
    Mr. Hunter. Is that in law that you have to--that OMB gets 
to scrub your request to Congress?
    Admiral Stosz. I don't know the answer to that question, 
sir. I would have to get back to you.
    Mr. Hunter. Or is that just the way it has always been 
done?
    Admiral Stosz. I don't know.
    Mr. Hunter. OK. Second question is we started a year or two 
ago in the Armed Services Committee a National Sea-Based 
Deterrence Fund because of the submarines we have to build, and 
how expensive they are, and how much of the Navy budget they 
are going to take up, right? It looks like you are going to 
have the same issues, where you don't have the money for--I 
mean we are--Mr. Graves talked about it, Ms. Mak talked about 
it, the 75 percent of your budget going towards two types of 
cutters, and that leaves almost nothing for icebreakers, for 
anything else, for land-based UAS. It is a really small amount.
    Have you put any thought towards doing something like that, 
doing--are you familiar with the account that I am talking 
about?
    Admiral Stosz. I am not familiar with that, sir.
    Mr. Hunter. It is basically a pot of money that they have 
created where they can put money into it every year to prepare 
for a big chunk of their budget being taken to make submarines. 
That is what they have done.
    Admiral Stosz. I have not----
    Mr. Hunter. Looking forward.
    Admiral Stosz. I have not looked into that, sir. I would 
like to. We always like to benchmark for best practices with 
our sister services. I would like to look into that, but do not 
know that program.
    Mr. Hunter. OK. After speaking with Mr. Garamendi, what we 
might do on the House floor is create this fund for you. We 
probably wouldn't put any money into it--depends on what the 
appropriators say--but that is something I would look at, if I 
were you, is a way to hedge against unforeseen needs that--
things that you might need later, 5 or 10 years out, and also 
simply to add money to it, going forward, so that you have more 
money when you get to--when you have to recapitalize, and to 
build new stuff.
    Number two, let's go up to this chart, too. Mr. Rayfield 
was telling me that, since 2010, you have had the money to go 
from the dark blue to the turquoise.
    Admiral Stosz. Yes, sir. We have had the money in our 
survey and design to look at the plans, the specifications, 
determining the work that needs to be done to extend the 
service lives of those 270s. So there is a number of different 
pieces of maintenance and work items you have to come up with. 
So that is what we are in the process of doing right now.
    Mr. Hunter. But it has been 7 years.
    Admiral Stosz. Well, and we are also looking at trying to--
--
    Mr. Hunter. Or sorry, since 2013.
    Admiral Stosz. We are trying to layer this in with the 
Offshore Patrol Cutter acquisition, sir.
    Mr. Hunter. Yes, but what I don't understand is if you wait 
long, if you keep waiting, you are not going to need to do any 
service life extensions, because it is going to overlap the 
OPCs.
    Admiral Stosz. And, sir, we will adjust the work list that 
we need to do in that service life, so it might cost less for 
us to do that, because we might do a smaller one to get those 
assets to the--to close that gap. We will have to do the 
analysis to make sure we do the right work that is needed to be 
done to close the gap.
    Mr. Hunter. How much money do you have in that account?
    Admiral Stosz. I don't know how much we have now, sir. We 
have been given several million dollars to work on the design 
of the work specification.
    Mr. Hunter. So what--so, just really simply, tell me what 
takes 4 years? Have you not wanted to do it, or are there 
technical difficulties, or----
    Admiral Stosz. Sir, we are making those tough tradeoff 
decisions. So we are trying to layer this in after the Offshore 
Patrol Cutter reward, and make sure that we have--doing the 
tough tradeoff decisions on what you can fund.
    Mr. Hunter. OK. I am not understanding. This chart is fake. 
This is a fake chart, because all you have is the dark blue. 
You were supposed to get out to the turquoise. At least start 
doing that, right? So the turquoise doesn't exist. Correct? 
There is--the turquoise on this doesn't exist, and the little 
dash lines don't exist, either. All you have is--the dark blue 
is what you have right now.
    So, right now, the very first ship, the Dependable, should 
have been decommissioned in 2011. It did not get a service life 
extension. It didn't get--it hasn't been upgraded in any way. 
So it is 2017, so you are 6 years past its decommissioning 
date, and you haven't done any upgrades to it. But you have the 
money. And you have had the money for 4 years. I am just not 
understanding.
    Admiral Stosz. Sir, we haven't had the money to do the 
work. We have had the money to----
    Mr. Hunter. To design?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. OK. I am still not understanding.
    Admiral Stosz. We are still----
    Mr. Hunter. But that means you haven't done the design 
work, if you still have the money in the account.
    Admiral Stosz. Oh, sir, I am not sure how much money we 
have in the account. I apologize, I don't know the answer to 
that question. I will have to look and see how much of that we 
have. But I know that we are--I just talked about this project 
with my program yesterday, and we are working on providing that 
specification so that we can determine what the right level of 
work is so that we can close that gap.
    We are committed to closing the gap. I am sorry about the 
details. I would offer you a brief to go over it in detail, 
sir.
    Mr. Hunter. But if you keep analyzing things, you are never 
going to do anything.
    Admiral Stosz. And I am not sure it is analyzing as much as 
it is developing that list and looking at where we need to put 
the effort. I will get you a brief, sir.
    Mr. Hunter. OK. All right, Admiral. We will take you on 
that.
    The six FRCs that we authorized that were requested by 
CENTCOM to operate in Southwest Asia, Middle East, how do you 
plan on paying for those? Is that going to be in your unfunded 
requirements list? Because now we have authorized it, it 
wouldn't necessarily be an unfunded requirements list. But is 
that going to be included in your June submittal?
    Admiral Stosz. Mr. Chairman, we are going to look at that 
unfunded priorities list, and the--when you come to the assets, 
the 6 percent of our budget that is funded for defense with 
offshore contingency operations, for instance, that is one part 
of funding we might be able to use. And if that was the case, 
we might not need it on the unfunded priorities list for 
appropriated funds. So we haven't come to the determination yet 
on what the funding would be. And nor are we really the 
decision authority on that. So we are still looking at the 
options for recapping.
    I did--my people did a maintenance assessment of those 110-
foot patrol boats that are over there. I have got a little less 
than 5 years left on them. We have some time, and we are 
starting to work towards what that replacement capability looks 
like, sir.
    Mr. Hunter. OK. I am going to yield to Mr. Garamendi now. 
But I have got more questions when it comes back around.
    Oh, I am sorry. What is--Mr. Lowenthal is recognized.
    Dr. Lowenthal. Thank you. Thank you, Mr. Chair. It seems to 
me that rising sea levels will be a challenge for the Coast 
Guard.
    What kinds of assessments have you made regarding rising 
sea levels? And how vulnerable are your facilities? And what 
are you--what plans do you have in place to address these 
vulnerabilities?
    Admiral Stosz. Thank you for the question, sir. We have a 
shore infrastructure vulnerability assessment ongoing right now 
with my civil engineering staff. We are looking at natural 
disasters, we are looking at rising tide. I have got buildings 
that aren't able to withstand the seismic activity in some 
parts of the country. I have got shore facilities that aren't 
going to be, in the longer haul, able to withstand the rising 
tide.
    So that study is in progress, and my people will have some 
answers to us in the near future. And then we will use those 
in--to inform our investment decisions.
    Dr. Lowenthal. I assume that when you are talking about 
rising tides, you are talking about sea level rise.
    Admiral Stosz. Yes, sir. Or it could be for flood, 
hurricane----
    Dr. Lowenthal. Oh, I understand that, but I am just 
concerned about sea level rise right now.
    Admiral Stosz. Yes, sir. Both. There is different parts of 
the coast that are--can rise faster than the other, based on 
whether the plates are sinking and the sea level is coming up, 
or just the sea level.
    Dr. Lowenthal. Thank you. And, Vice Admiral Ray, my 
question is I know you are aware of how important the Port of 
Long Beach is to our national economy. A cyber event in the 
port could have far-reaching impacts and cause considerable 
damage to the regional and also to the national economy.
    What is the Coast Guard doing to safeguard our ships and 
ports from cyberattack?
    Admiral Ray. Thank you for the question, sir. We have 
been--I am proud of the proactive approach our folks have taken 
in this cyber arena. We have got authority to work this issue, 
and we have really been working--for the past 3 years, we 
worked awareness with industry. And that ranges, depending on 
the sophistication of the business entity involved. And we have 
got these coordinating units at each of our major ports, and 
Long Beach no exception.
    And we have got Area Maritime Security Committees, and we--
each one of those now has a cyber element to it. So primarily, 
up until now, we have been working the awareness phase, along 
with awareness of industry standards for security.
    And then the next phase is to include this when we do our 
visits to port facilities and to ships, to work through--and 
this is not an onerous, over-the-top-type viewpoint, it is 
working with the facilities to say this is what we think you 
should be concerned about, given your lay-down. And kind of 
work with them on that. So I think we have been moving out 
smartly on this.
    The good thing, too, is there is--industry has a lot of--at 
all facilities they have a lot of motivation to get this right. 
And they are aware of the threat, for obvious reasons.
    Dr. Lowenthal. Thank you, and I yield back.
    Mr. Hunter. I thank the gentleman. I am going to yield to 
Mr. Garamendi, because we got out of order.
    Mr. Garamendi. I thank you, Mr. Chairman. And thank you for 
the series of questions, and also the question about sea level 
rise. Extremely important.
    We have got a major problem here. Ms. Mak, thank you so 
very much for, you know, really identifying and clearly 
positioning this issue before us.
    I understand the Coast Guard. Admirals, I know the problem 
that you have. I think you fully understand the situation, but 
you are being reined in by the OMB, and not allowed at this 
point to fully express to us the full needs of the Coast Guard.
    I think that we do have the obligation to demand from you 
the unvarnished, unscrubbed, and uncensored information 
necessary for us to adequately address the Coast Guard's 
acquisition needs, as well as its operational needs. And so I 
will work with the chairman to develop a series of questions 
for you to deliver to us the specific requirements that you 
have, unscrubbed by OMB, to fully address your acquisitions, as 
well as your ongoing operations and maintenance requirements. 
At the present time we do not have that information.
    It may be that the--Ms. Mak, you may have more information. 
You deferred when I asked you the question about what the 
requirements would be. You deferred to the Coast Guard, as I 
thought you might. But perhaps you have some sense of what 
those numbers are, at least in general terms, and I would 
appreciate it if you could deliver to us your assessment of 
what those requirements are, so that both the operations, 
maintenance requirements of the Coast Guard, and the 
acquisition requirements can be at least known to us.
    The Navy League, Mr. Acton, you spoke to this. If you have 
any sense of this, I would appreciate those numbers also from 
your sense of it.
    Also, the chairman a moment ago suggested that we might--we 
were having a little offline discussion up here about putting 
in to the Coast Guard authorization legislation, which will 
soon be on the floor, a floor amendment that would set up a 
separate account, similar to what the Navy has, so that there 
would be the normal operational accounts and ongoing 
maintenance accounts and budgets for that, and then a special 
account in which the acquisition money could be separated off.
    Right now these two are in competition, the result of which 
is something--it isn't going to work. Your ships are going to 
simply be laid up for lack of maintenance or even fuel, and we 
will go build a bunch of new ships that won't be able to 
operate for lack of fuel and maintenance, and so forth. So we 
got a problem here that we are going to have to find a way of 
addressing in the larger sense of it. And the chairman and I 
will work on that, as he said a moment ago.
    I do have a series of other questions. Some of them are--
would seem to be minor, in comparison with what I just talked 
about.
    Buoy tenders, what is the cost of a buoy tender, a new one? 
Any idea? Just a rough estimate.
    Admiral Stosz. Are you talking the River Tenders, sir?
    Mr. Garamendi. Yes.
    Admiral Stosz. Inland River Tenders? It is about $25 
million. Those are off-the-shelf, available from the Army Corps 
of Engineers.
    Mr. Garamendi. $25 million a pop? One hundred million 
dollars, four or five a year, a couple hundred million dollars 
a year, we get eight? OK. This just takes us back to the 
question I just raised a moment ago, the issue.
    The Offshore Patrol Cutter. You have got a new program 
underway. Just a quick status report. I know it is real new, 
but it is--basically, less than 4 months, I believe. Just a 
quick status report.
    Admiral Stosz. Yes, sir. The Offshore Patrol Cutter is 
contract-awarded. The shipbuilder is going through detail 
design. We have established an on-site office, what we call a 
project resident office, down there. We have the funds in 2017 
and 2018 are going to purchase the construction for number 1, 
and the long lead-time materials for number 2.
    Mr. Garamendi. And the delivery?
    Admiral Stosz. Delivery is 2021 for the first ship.
    Mr. Garamendi. OK. I had the opportunity to visit the 
shipyard and meet your team that is down there. So we will 
periodically ask for an update.
    I believe the contract is similar to the Fast Response 
Cutter contract in which there is a warranty. Is that correct?
    Admiral Stosz. Yes, sir.
    Mr. Garamendi. Excellent. I like the idea of warranties, 
because I was--also visited the Bollinger facility, and there 
was a repair team there from the engine manufacturer that was 
rebuilding the manifold, if I recall correctly. Is that--so 
keep the warranties in place.
    A couple of other questions. This is to you, Admiral Stosz. 
It has come to my attention that the Coast Guard is facing a 
major gap in funding to cover the healthcare expenses for 
retired Coast Guard personnel. Is that correct?
    Admiral Stosz. I don't know. I am not aware that----
    Mr. Garamendi. Well, it is correct. And this takes us to 
something that the chairman and I will have to work on on the 
Defense Authorization Act, in which the Coast Guard personnel 
requirements, both active and retirement, should line up with 
the general military requirements. And I think we are going to 
need to put a clause in the NDAA to address that.
    If you can, come back with some specific information for 
us, so that we can--I think the NDAA is taken up this month. So 
we want to watch that carefully.
    Admiral Stosz. Yes, sir.

    [The information follows:]

        The Coast Guard does not face a funding gap with respect to 
        covering healthcare expenses for retirees.

        The Coast Guard does face a funding gap with regards to the 
        newest retirement system--the Blended Retirement System (BRS). 
        We have the unique challenge of funding all new BRS components 
        but being the only armed service outside of the Department of 
        Defense's (DoD) Military Retirement Trust Fund.

        Essentially, when the 2016 National Defense Authorization Act 
        (NDAA) modernized the military's retirement system, it left the 
        Coast Guard behind. If the NDAA is implemented, as currently 
        enacted, the Coast Guard may be forced to reduce operations to 
        fund servicemember retirement benefits.

        The DoD's method of accrual accounting (e.g., the Military 
        Retirement Trust Fund) creates immense discretionary savings 
        over the first 5 years that they will use to fund BRS 
        increments (e.g., Continuation Pay and Thrift Savings Plan 
        matching contributions). There are no savings available to the 
        Coast Guard since we use a pay-as-you-go method to fund retired 
        pay. Absent legislative action, the Coast Guard could face an 
        annual bill in excess of $35 million in the years following BRS 
        implementation, thus forcing us to make operational tradeoffs 
        such as: an 18-percent reduction in operational fuel funding, a 
        76-percent reduction in military accession and training 
        programs, a 1-percent reduction of the military force, or the 
        loss of 12 major cutter dry-dock maintenance periods.

        We do not believe that it was the intent of the 2016 NDAA to 
        create this unique challenge for the smallest of the five armed 
        services; however, without legislative assistance the Coast 
        Guard faces difficult decisions in the near future.

    Mr. Garamendi. Mr. Acton, the eLoran. We can go into it--
question. Based upon your experience with the Department of 
Homeland Security and with the Coast Guard, do you think the 
eLoran system could help eliminate the problems with the GPS?
    Mr. Acton. Yes, sir. As you know, the GPS system has been 
around for a while. It is fairly easy to disrupt. There is a 
growing reliance on that system in virtually every technology 
area, and yet our adversaries are gaining a growing capacity to 
be able to disrupt that.
    So, from our perspective, GPS is a single point of failure 
from much of our infrastructure. And this issue has been known 
for quite a number of years. Although the Coast Guard should 
not have the lead, and does not have the lead on that, I 
believe it is the Secretary of Transportation overseeing the 
National Executive Committee for Space-Based PNT [Positioning, 
Navigation, and Timing], the executive committee, the Coast 
Guard does have a key supporting role in that.
    So, as a single point of failure that has been recognized 
for some time, the Navy League would support advancing a backup 
program like eLoran.
    Mr. Garamendi. OK. In our Coast Guard reauthorization, we 
actually give to the--instruct the Department of Homeland 
Security to take up this issue--excuse me, Department of 
Transportation to take up this issue, and to work with the 
Coast Guard on implementing it.
    Do you think--well, let's just--one more thing, and this 
brings us back to this overarching budget problem here.
    Ultimately, the Coast Guard did do this. They did do the 
loran system. And the question is, are they capable of doing 
the eLoran system? The answer is, of course, if they have the 
money. Correct, Admirals?
    Admiral Ray. Yes, sir. Given the required resources, we 
could--we have taken on a lot of missions over the years.
    Mr. Garamendi. Give us the money and you can get it done, 
right?
    [Laughter]
    Mr. Garamendi. OK. I have been beating this drum so many 
times, but yes, it is in the authorization--it is in the 
reauthorization, and we are going to try to make sure the money 
is there, also.
    You mention IT networks in the testimony. Could you expand 
on that?
    Admiral Stosz. Yes, sir. So our information technology 
network is the foundation on which our mission systems operate, 
our shore-based mission systems, our programs and software, and 
on which the cyber capability rides. So Admiral Ray can't 
implement his cybersecurity operations unless I have got the 
enterprise mission platform up to date.
    And right now we have aging IT infrastructure systems. Like 
our electronic health record system, as you probably are well 
aware, has had to go back to paper. We are in the process of 
that acquisition. It has become a major acquisition for us. And 
these IT acquisitions had not been major acquisitions in the 
past. Or they are formal acquisitions, rather.
    Also, our core accounting system, we are working with a lot 
of these aging systems that run much of our Coast Guard and 
also our mission systems, our applications that we rely upon to 
do our Coast Guard business. So there is a lot to that 
infrastructure for our IT, and we are starting to fund that, 
and we are on it. We have requirements we have to meet through 
DoD on the .mil side to do much of that work.
    Mr. Garamendi. Both the chairman and I are on the Strategic 
Forces Subcommittee, which deals with a lot of this IT stuff. 
And for the Department of Defense, this is a huge issue. This 
is the first I have heard about this issue in this context with 
the Coast Guard. I would appreciate a more complete briefing 
about this overarching issue. It is not only your ability to 
communicate and to keep track of what is going on, but also the 
question of the security of the system.
    Admiral Stosz. Yes, sir. We are in the same exact place the 
DoD is with this. We are on the .mil side, we are aligned with 
them, we are going through all the same processes and 
procedures that you will see on your other committee.
    Yes, sir, I will get you a brief on that.
    Mr. Garamendi. All right. I am going to just quickly, if I 
might, Mr. Chairman--I am way over time, I am sorry, here.
    Mr. Hunter. It is just us. Go ahead. It is just us.
    Mr. Garamendi. OK. Icebreakers. We have had a couple of 
questions back and forth about the icebreaker. Again, just a 
very quick update. I missed part of the testimony--I think you 
may have answered it--for the Great Lakes issue. Let's go back 
to the heavy icebreaker, and bring us up to date on that.
    Admiral Stosz. Yes, sir. The heavy icebreaker, where we are 
with that is, first of all, I am happy to hear the President, 
at the Coast Guard Academy graduation a couple weeks ago, call 
for building many heavy icebreakers. And I am glad to hear the 
support that Secretary Kelly gave us yesterday during his 
testimony for supporting icebreakers.
    We have stood up an integrated program office with the 
Navy. This is the best thing, ever. We are leveraging the 
expertise of both parties to reduce costs and increase the 
speed we can deliver this icebreaker. And that timeline is now 
2023 for delivery.
    That integrated program office is doing some great things. 
One of them is that they are looking at the requirements and 
doing tradeoff analysis to drive that cost down well under $1 
billion. They are--we issued out five industry studies, as you 
might be aware. I am very excited about those. They are charged 
with looking at reducing risks, but looking at identifying 
technical elements, and they are looking at, specifically, 
block buying, what the possibility is for that.
    And we have also been doing tank test trials with the 
Canadian partners, and that acquisition is, like I said, 
looking to deliver in 2023. The funding in 2017 and 2018 is 
going to get us the RFP, request for proposals. That will be 
out in 2018. And then we will be ready to issue detailed design 
and construction in 2018 or 2019.
    Mr. Garamendi. So we are moving along on schedule. You 
quickly mentioned Canada. Could you expand on that?
    Admiral Stosz. Yes, sir. Canadians have a lot of experience 
with icebreaking, too, and so we are partnering with them to do 
tank test trials of the hull form to look at validating 
viability of different hull forms. It is part of the----
    Mr. Garamendi. Are they interested in the heavy icebreaker, 
also?
    Admiral Stosz. Yes, sir. They have heavy icebreakers, also. 
That has been a part of their history.
    Mr. Garamendi. So is there a possibility that Canada and 
the United States will build a similar icebreaker and, instead 
of three, there may be four or more, depending on what Canada 
wants?
    Admiral Stosz. Sir, I don't know where the Canadians are 
with their icebreaking right now. I have got people who do. We 
can get back to you on that, sir. But we are partnering with 
everybody we can on this to make sure we get it faster and 
better.
    Mr. Garamendi. OK. Also in the Authorization Act which will 
soon be on the floor there is the issue of a study of a rental 
or lease of an icebreaker.
    Admiral Stosz. I defer to my colleague on that one, sir, 
Admiral Ray.
    Admiral Ray. We have been in contact with the folks that 
are interested in leasing an icebreaker, sir, and just--in 
fact, just last week--they have developed ice trial, a proposed 
way to do ice trials, because this one that is available for 
lease has never actually broken ice, as you know.
    So we have been in communication with them as recently as 
last week and told them we would be interested in sending Coast 
Guard observers for this ice trial, if and when they do that.
    Mr. Garamendi. And if that works out, that would be for an 
interim period of time, and that would be the operations 
budget? And that takes us back to the issue of acquisition 
budget in competition with operations budgets. We go back and 
forth here.
    Please keep us up to date on it. I know it is a priority 
among some of the members of the committee, and so we want to 
stay on top of that trial. And if you will, let us know about 
that.
    Mr. Chairman, I could probably go on for an hour, but I 
have gone on 10 minutes past my time, so I will ask for 
forgiveness and yield back.
    Mr. Hunter. I thank the ranking member. Let's stay on the 
Aiviq for a minute, right? That is the only U.S.-made 
icebreaker that exists, besides the two that you have sometimes 
when they work.
    So you said last week they developed a sea trial plan?
    Admiral Ray. No, sir. They developed this a few weeks ago. 
But we--they sent it to us to review several weeks ago, and our 
folks took the time and due diligence in reviewing the sea 
trial, ice trial plan for the Aiviq, and we responded to them a 
week before last and told them, you know, kind of a--that it 
looked like a reasonable plan. And this is not a quote, but you 
know, a reasonable plan, and that we would be interested in 
sending Coast Guard folks to observe it, if and when they do 
execute those plans.
    Mr. Hunter. OK. So when they execute the ice trials, 
according to what the Coast Guard wants them to do, you are 
going to have Coast Guard observers?
    Admiral Ray. We offered that. We haven't closed the--we 
haven't gotten a response back from the offer that we gave them 
as of yesterday, when I asked.
    Mr. Hunter. OK. Thank you. Admiral Stosz, really quick, the 
VA just came out and said they are going to use the DoD's 
electronic health record system, finally. I mean this has been 
going on for a decade now, where they each have their own 
thing, and they don't talk to each other. Why don't you guys 
piggyback on DoD?
    Admiral Stosz. I would love to, sir.
    Mr. Hunter. So now you are not going to--but you have 
developed your own system.
    Admiral Stosz. We aren't developing our own system. We are 
going out right now, doing the market research because we are 
required to by the acquisition process.
    Mr. Hunter. Why would you go out and do market research on 
something the Department of Defense already has? You are part 
of the Department of Defense.
    Admiral Stosz. We are. Well, no. We are a military service, 
not part of the Department of Defense. We are trying to get in 
on the DoD's acquisition program. Now that the VA has come on 
board with that program, we see an opportunity to leverage in 
to that. It was--there were some challenges on the contracting 
side, with leveraging into the DoD program, given where they 
were with the contract, with the VA just looking to get on.
    We are excited. Just yesterday I was talking to my staff 
about get me a brief on this, and how fast we can move on this, 
given that we are at paper records right now, and there is 
nothing good about that. I am very excited about this right 
now. We need to look and see what the requirements are.
    As you probably well know, we have an audit undergoing 
right now. Because of the IHIS [Integrated Health Information 
System], the old--the problems we had with the program in the 
past, we want to make sure we do everything right. So we are--
that is what we are doing, is making sure we do it right. But 
if we have a chance to get in here and get onto this program 
that is--this acquisition that DoD and VA are getting on to, we 
would love to do that. And we owe it to our people to be 
compatible, to have--from first handshake to retirement, to 
have a compatible healthcare system.
    Mr. Hunter. And the committee would highly recommend that 
you don't do your own thing, and that you piggyback on DoD's 
plan.
    Admiral Stosz. Yes, sir.
    Mr. Hunter. All right? You talked about cyber--I am just 
curious, really quick--and Mr. Garamendi asked for a hearing on 
that.
    If we could do a classified hearing, that would be great, 
because I would like to hear about the bad guy spoofing when we 
try to track them, and--because that would nullify your game 
theory which you use to not check 99 percent of the cargo 
containers coming into the U.S. The 1 percent that gets checked 
is basically done by--you are saying this is coming from a bad 
place or going through a bad place, and we are going to check 
this. That could probably be affected through cyberattacks or 
spoofing, and that kind of thing. So if we could do a 
classified hearing on what Mr. Garamendi talked about, that 
would be great.
    Is a heavy icebreaker going to be on your unfunded 
requirements list?
    Admiral Stosz. Mr. Chairman, we would prefer that that 
icebreaker was appropriated funds, either this ship conversion 
Navy that the--was used last time for the Coast Guard cutter 
Healy, or in our appropriated funds. But if not, then that will 
be something that is at the top of the list that we submit.
    Mr. Hunter. It wouldn't hurt to pile on.
    [Laughter]
    Mr. Hunter. Right? To ask for more than once.
    And there is something here that I don't understand. You 
said you are requesting $10 million in this year's budget 
request--and tell me if I am wrong--$10 million for shoreside 
infrastructure. Is that correct?
    Admiral Stosz. I believe that $10 million is the number, 
sir. I need to pull out my sheet.
    Mr. Hunter. So what number?
    Admiral Stosz. I believe that is the number.
    Mr. Hunter. OK. So let's just say it is $10 million, and 
maybe $8 million, or it may be $15 million. Let's even say it 
was $20 million or something. I don't understand. There is a 
$1.6 billion construction backlog, right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. And the $700 million maintenance backlog, 
right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. And the Coast Guard is requesting $10 million, 
$1.8 billion plus $700 million, or $1.6 billion plus $700 
million, that is more than $10 million.
    Admiral Stosz. Yes, sir, that----
    Mr. Hunter. I don't understand.
    Admiral Stosz. That goes to the tough tradeoff decisions 
that we have to make.
    Mr. Hunter. Yes, but I guess my question is, though, again, 
this is about the Coast Guard not requesting what you need. So 
why wouldn't you request what you need?
    Admiral Stosz. It won't fit within the budget that we have 
to build.
    Mr. Hunter. But my--we go around this all the time, back 
and forth, back and forth. You are there to request the budget 
for what you need to accomplish your missions, right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. And you have mission needs statements, which 
lay out your statutory missions. There are 11, right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. OK. So you have that. But then you don't 
request the funding that would allow you to meet those mission 
sets. I just don't understand. I mean $10 million is paltry. 
That is nothing. So why even have this? Why even say you have--
I mean so you say you have this massive backlog, all these 
things you have to do.
    I guess, Admiral Ray, operations-wise, is not getting that 
infrastructure fixed up going to have an effect on the new 
assets that you are purchasing?
    Admiral Ray. Yes, sir. It does, ultimately. I mean, as the 
Congress--as the ranking member said, we got to have a place 
for folks to come back home to.
    And so, what our Commandant has stated moving forward is we 
got to reconcile this, just as we did with this--we made a 
statement about the $2.0 billion AC&I recurring. We would like 
to--our target on that is $300 million recurring for shoreside 
infrastructure. We are not there yet. We have had to make tough 
decisions like other folks, and our--as an operational agency, 
we have tended to favor operational assets. And that is where 
we have been, up until recent years.
    So, moving forward, we are going to have to adjust. But to 
answer your question, these resources, the shoreside 
infrastructure is important to operations, as well.
    Mr. Hunter. And what there is right now--and, Ms. Mak, I am 
going to kind of ask you to fill in the blanks here--you have a 
total disconnect between the budget you are receiving, or the 
budget request the Coast Guard has given Congress, and the 
President's budget request is totally out of connection with 
what the President has said. Totally.
    In fact, you guys remember back about a month or two ago 
OMB was planning on cutting your operational budget by, like, 
$1.3 billion out of your $10 billion budget, right? That is a 
total disconnect from what the President says. So either the 
President's office has no input whatsoever with your budget 
request, or the requirements that the President has for you and 
the U.S. Coast Guard, or they just don't care what the 
President says in OMB.
    What do you--Ms. Mak, what do you think the issue is here? 
Because there is a total disconnect.
    In fact, we found out about the OMB budget cuts the day 
after the President gave his State of the Union, where he 
talked about transnational terrorism and crime and drugs, which 
is what the Coast Guard does, and then they are going to 
propose to cut you by 10 percent. I don't get it.
    So what is the disconnect?
    Ms. Mak. I agree with you, sir. You are absolutely right. 
There has been a disconnect. We have been reporting that for 
years, as you are well aware of.
    For the deferred acquisitions, the Coast Guard's answer is 
that because of budget limitations they have been deferring 
their acquisitions. As a result, that has created this bow 
wave, and it has come to the point where now it is 
unsustainable.
    And I think the first step, a positive step, is this 20-
year plan that we have been talking about, to be able to lay 
out all their assets, all their missions, and then all the 
funding that is required, because then they can begin tradeoff 
discussions. What may impact what missions, what missions they 
may not be able to do as effectively.
    But that can't be done until that is all laid out in a plan 
to see, OK, we have this much and this is how much we need. 
What assets are we not going to get? What assets are we going 
to get, and how they impact mission. So that is what we believe 
is a first step.
    Mr. Hunter. Well, why do you think the disconnect exists 
between what the President has said he wants to do and wants to 
use the Coast Guard for, and the lack of funding?
    Ms. Mak. That could just be priorities further up in DHS or 
OMB. I can't make that call about where those priorities and 
decision are being made.
    Mr. Hunter. OK. Do any of you know how much money out of 
OCO was earmarked for homeland security out of the National 
Defense Authorization Act?
    [No response.]
    Mr. Hunter. Because I believe Secretary Kelly got some 
money, or at least requested some money in what is going to be 
OCO coming up. But you guys don't recall how much that is? And 
obviously, then, you wouldn't know if any of that is earmarked 
towards the Coast Guard.
    Mr. Garamendi [to the chairman]. You mentioned CENTCOM.
    Mr. Hunter. Yes. This is----
    Admiral Stosz. I don't recall the amount, but we received 
in 2017 the OCO funding we need.
    Mr. Hunter. What was the OCO funding spent on?
    Admiral Stosz. That is spent on our fast response--excuse 
me, our 110-foot patrol boats over in the CENTCOM AOR.
    Mr. Hunter. And that is what the six FRCs we requested are 
supposed to take the place of, or to help bolster that?
    Admiral Stosz. Mr. Chairman, when those six 110-foot patrol 
boats over there are no longer capable of serving--and my 
assessment is that they have about 5 years left--the 
operational analysis is being done to look at what the 
replacement capability is. It might not necessarily be one for 
one. We have to look at that. But that----
    Mr. Hunter. Well, I mean, CENTCOM asked us to request six 
FRCs for you.
    Admiral Stosz. I am just saying, sir, that is the number we 
have now. It--we just do a whole analysis to make sure we are 
doing things cheaper and the right way. So making sure we get 
the right cost and drive down the cost of the acquisition.
    But certainly the OCO money is a viable place to look to 
fund new assets to go over there, we just haven't looked into 
that, and that is not our call.
    Mr. Hunter. Do you have a plan on--if those six FRCs--so 
let's say that the six are cut down to three or something in 
the Senate or with Appropriations. Do you have a plan on how to 
put those in to the build cycle for FRCs? Do you add one a year 
for 3 years or something? Or what do you do?
    Admiral Stosz. Are you talking, sir, about if we do use the 
Fast Response Cutters to replace those 110s over in the CENTCOM 
AOR?
    Mr. Hunter. Yes. So we authorized six FRCs in our 
authorization bill we just passed. Six more because of a 
request by CENTCOM to us, which--I am sure that was in 
consultation with the Coast Guard at some level. What have you 
done to work that into your plans, assuming that a few of those 
get approved and there is funding for them?
    Admiral Stosz. I will defer to my colleague on that. We 
haven't gotten that final auth bill yet, and we haven't--I 
haven't worked that issue yet.
    Admiral Ray. Sir, we are working with the Navy staff and 
with the folks over at the Department of Defense to kind of 
fine-tune. We got the clear demand signal from CENTCOM, clear 
demand signal from the NAVCENT [U.S. Naval Forces Central 
Command] over there that the patrol boats that are currently 
there, they need that capability, moving forward, regardless 
of--now then, the question that we haven't answered yet is how 
to be funded, whether it is OCO, whether it is appropriated, we 
haven't answered that question yet.
    We are working on requirements right now, which are fairly 
straightforward. We are working directly with the Navy staff. 
And the one thing that we have made--where we have discussed 
this is we do not--if it is an FRC that replaces them, we do 
not want that to take the place of the fielding plan we have 
right now for our FRCs, the schedule that we are on.
    So the 58 that we are planning to deploy around the 
country, if this will be over and above--in other words, we 
wouldn't take those and divert them. That is the planning 
document or the planning strategy we have right now for that.
    Mr. Hunter. I thank you. Mr. Garamendi is recognized.
    Mr. Garamendi. Mr. Chairman, you are on to a series of 
questions here that are, I think, really, really important. 
There are two pieces of this, a request for six FRCs. Are these 
the new FRCs, are these part of the 58 that we are supposed to 
have? Or are these additional to that? Are we going to send the 
FRCs that are presently available over there, rather than 
somewhere around the continental United States? What is going 
on here?
    Admiral Ray. Sir, our intent is to take the 58 that are 
currently scheduled, the program of record, and keep them going 
where they are supposed to go in the United States or in our 
territories, you know, Puerto Rico, et cetera.
    Mr. Garamendi. So if the Defense Department wants 6, these 
are in addition to the 58? And so these would be available at 
some day in the future?
    Admiral Ray. That is correct, sir.
    Mr. Garamendi. OK. Well, we are going to need some detail 
here. Somebody is going to have to find the money for those 
six, right?
    Admiral Ray. Absolutely, sir.
    Mr. Garamendi. What do they cost, apiece? What is the cost 
of a--couple hundred million?
    Admiral Stosz. I don't have that right at my----
    Mr. Garamendi. Well, OK. There is a certain number here. If 
there are 6--so you are saying those 6 do not come out of the 
58 that are--so these are additional? And the CENTCOM wants 
them. Who is going to pay for the, DoD budget or Homeland 
Security budget? Meaning your budget. OK, we need some detail 
here, folks.
    Admiral Stosz. Yes, sir.
    Mr. Garamendi. Soon.
    Admiral Stosz. I do have fiscal year 2017 enacted for six 
of those. It is $325 million.
    Mr. Garamendi. Now--thank you. We presently have how many 
Coast Guard ships in the Persian Gulf?
    Admiral Ray. Six 110-foot patrol boats.
    Mr. Garamendi. Six?
    Admiral Ray. Yes, sir.
    Mr. Garamendi. Who is paying for the--is the cost of those 
operations out of the OCO fund?
    Admiral Ray. Yes, sir. That is correct. That is completely 
OCO funded.
    Mr. Garamendi. OK, very good. Thank you. Obviously, we need 
some more information here about that. We are looking at some 
additional ships being built, or else we are going to go short 
on the operational plans to protect our coasts.
    Airplanes, quickly on airplanes. Your C-27Js, the current 
budget that has been proposed by the President basically guts 
the upgrading of these so that you could use them. Is that 
correct?
    Admiral Stosz. Congressman, the C-27s, they do come with us 
needing to be missionized----
    Mr. Garamendi. Right.
    Admiral Stosz [continuing]. And needing to have all the 
sparing. So that is what the money is for right now, is we have 
regenerated those, we have regenerated six of those out to Air 
Station Sacramento. We are regenerating the rest of them, and 
the money is for missionization and the sparing.
    Mr. Garamendi. But your budget proposal doesn't provide the 
money to do that. Is that correct?
    Admiral Stosz. I know we have money in the budget for the 
sparing and the missionization. It might not be as much as you 
are thinking.
    Mr. Garamendi. Well, I am--this goes to the overarching 
question that the chairman was raising a few moments ago, and 
that is that the budget of the Coast Guard has been seriously 
censored by OMB. And the money necessary for acquisition of new 
ships is now in competition with operations and for upgrades, 
including the C-27Js.
    It is essential that we have good data and good 
information, because we are--it is our responsibility to make 
choices about where to spend the taxpayers' money. And the 
current information that we have available from the Coast Guard 
is inadequate. It does not provide us with the necessary data 
that we need to make a choice about spending money for 
acquisitions, for operations, for maintenance, and amongst the 
various other requirements of the Government, specifically the 
Department of Defense, which is plussed up by some, I think, 
$30 billion.
    And it appears to me that some of that plus-up comes 
directly out of the Coast Guard procurement and operations, in 
which case we have got a problem that we need data and 
information.
    I would like to work with the chairman to put a specific 
question--a series of questions to the Coast Guard about the 
money that you need for operations, maintenance, as--and also 
money you need for the ongoing procurement programs, which 
stretch across--which include both ships, planes, unmanned 
aerial vehicles, and the rest, so that we can have the data 
necessary to make some tough decisions.
    That means I need information that is not scrubbed, 
censored, and otherwise altered by OMB. The chairman was trying 
to get at this, and I will--I am going to support him in every 
way to get the data and information that we need directly from 
the Coast Guard.
    So I suspect we will pursue that, Mr. Chairman. I thank 
you. I am going to yield back.
    Mr. Hunter. I thank the ranking member. I think, you know, 
one of the big things is, too, we are on the Armed Services 
Committee. So we see the service chiefs come in all the time 
and say, ``Here is what we need, here is what we want. DoD is 
not asking for this.'' They go out there and fight for what 
they need, right? You don't do that.
    In fact, you are highly censored by your overseers at OMB, 
so you are not even able to come in and say, ``Here are all the 
things that the Coast Guard really needs, OMB can go to hell. 
The President says here is the mission that he wants us to 
accomplish, and here is what we need to accomplish the 
mission.''
    That is what all the other service chiefs do. They do 
roundtables with us, they do classified roundtables, where they 
go, ``Here is, no joke, what we need to survive and do what we 
need to do.'' You don't do that. And we are trying to get you 
to do that. All right?
    We have given you the acquisition capabilities that the 
other military services have, finally. I don't know how you 
went for decades without having the same acquisition authority 
for lead time materials and block buys and all that stuff. I 
mean no wonder everything was so jacked up for so long. So we 
are trying to get you there, but we need you to fight for 
yourselves.
    So, Mr. Acton, let me close with this last question. If the 
Coast Guard--and, Ms. Mak, you might be able to pile on here--
if the Coast Guard was--is--the Coast Guard is an armed 
service. We are trying to make you more armed. We want to 
really weaponize all your stuff more than it is. But if the 
Coast Guard is an armed service, and it is within the 
Department--but it is not within the Department of Defense--if 
it was in the Department of Defense, right, at least for those 
missions that were not regulatory in nature, do you think we 
would be having this same conversation about them not having 
the money that they would need to accomplish their mission?
    Mr. Acton. Sir, I think, living in a different culture than 
DoD is, I am sure the Coast Guard would react differently to 
some of the issues that they are facing.
    But the larger issue is that the Coast Guard assets are 
multi-mission. They are both law enforcement and DoD, and it is 
unique in that regard. And that really is what enhances the 
Coast Guard's value to the country, is being able to be both 
title 10 military and title 14 law enforcement. So, really, it 
is a capability multiplier for the Nation.
    And so the different areas that we have been talking about 
today regarding investments in Coast Guard assets and people 
and training, those are really strategic investments and 
national issues and national platforms. It is more than just 
aircraft, ships, and people. This is important to the Nation.
    Mr. Hunter. OK. Let me ask you. Just because you are in DoD 
doesn't mean you can't do law enforcement. Like right now they 
are in the Department of Homeland Security and they can do DoD 
missions. Where you put them doesn't matter in terms of what 
they can do in their capabilities. It has to do with what their 
funding is and where it comes from.
    Mr. Acton. Yes, sir. That is correct. Unlike the Reserve or 
National Guard, the Coast Guard does not switch hats from title 
32 to title 10. The Coast Guard is at all times, 
simultaneously, a title 10 military organization and a title 14 
law enforcement. So they keep those two hats on all the time 
and don't have to switch. And that gives the Coast Guard some 
real operational advantages that the country should be 
leveraging.
    Mr. Hunter. So my question is, then, is on funding. If the 
Coast Guard were in DoD, and not in the Department of Homeland 
Security, do you think that their funding levels would be 
different?
    Mr. Acton. Yes, sir. I think they would be higher.
    Mr. Hunter. Ms. Mak?
    Ms. Mak. GAO does not have a position on where the Coast 
Guard should fit, whether it should be under DoD or DHS.
    But I will address your bigger concern of cost. We 
currently have ongoing work looking at the recapitalization 
base for your subcommittee. We also have ongoing work that is 
looking at O&M costs, as well as shore infrastructure, which 
just kicked off. So hopefully in the next year we should be 
able to provide you some realistic costs that the Coast Guard 
needs to do some of these things to meet their missions.
    Mr. Garamendi. Can we get back at this in a couple of 
months?
    Mr. Hunter. Yes, we can. And we will--Mr. Garamendi just 
asked if we could take this up in a few months again. What we 
would really like to see is your 20-year plan, because, even 
when you get all--so say that everything works beautifully, and 
more money gets dumped in, and all these new assets, they are 
all done, and they are on time, and they are on budget.
    You don't know what your operations and maintenance is 
going to be. And you said it is more expensive, and I can see 
that, it is like taking in a new 2017 truck compared to a 1969 
truck that you can just open up the hood and change out the 
carburetor or something, but now you got to plug it in. It is 
much, much more complex. You don't know what those are going to 
be.
    And if you have a flat budget, and you are not preparing 
for that higher O&M, then you are going to be in the same 
situation you are now in 15 years, which I don't think you want 
to be in. So you need to get the 20-year plan to us so we can 
look at that, and you can look at it. Because, obviously, if 
you don't have it, not even you can see it if you--if it 
doesn't exist, so you can see what your O&M costs are going to 
be.
    I think that is kind of what we need, we need to see the 
plans. And the 5-year plan you will have to us----
    Mr. Garamendi. Unscrubbed.
    Mr. Hunter. You will have to us when?
    Admiral Stosz. Mr. Chairman, the 5-year plan is under 
development, and it is going through the process.
    Mr. Hunter. I got you. So you are going to have your 
unfunded requirement list at the end of the month. Why wouldn't 
you have your 5-year plan along with that? Because then how do 
you know what you need, if you don't have a 5-year plan? How 
can you give us an unfunded----
    Admiral Stosz. Yes, sir. The 5-year plan is the first, then 
the 20-year plan, and the unfunded priorities lists build on 
that. So these are all----
    Mr. Hunter. Right, that is what I am saying. You are going 
to have--the Commandant said he is going to have the unfunded 
requirement list to us by the end of this month, right?
    Admiral Stosz. Yes, sir.
    Mr. Hunter. So if the unfunded requirement list builds off 
the 5- and the 20-year plans, but you don't have the 5- and 20-
year plans, then how would you have an unfunded requirement 
list based on them that don't exist?
    Admiral Stosz. They are building in sequence, sir, and then 
we will have them----
    Mr. Hunter. OK, but you are not understanding what I am 
saying.
    Admiral Stosz. Yes, sir.
    Mr. Hunter. The unfunded requirement list you are going to 
have to us at the end of this month.
    Admiral Stosz. Yes, sir.
    Mr. Hunter. But you said it is sequential, and they--and 
that that list will build off the 5-year plan and the 20-year 
plan.
    Admiral Stosz. So----
    Mr. Hunter. So if you are going to have the third thing to 
me in 20 days, then why wouldn't you have the 5- and 20-year 
plans, which it builds off, at the same time or beforehand?
    Admiral Stosz. To my knowledge, sir, that is how they come. 
They will all come by the 30th of June.
    Mr. Hunter. OK. So we will have them all this month, the 5-
year plan, the 20-year plan, and the unfunded requirement list 
in the next 23 days?
    Admiral Stosz. And, sir, I can't control the timing of the 
process, but that is certainly the goal.
    Mr. Hunter. OK.
    Mr. Garamendi. If I might?
    Mr. Hunter. Sure. I yield to the ranking----
    Mr. Garamendi. Mr. Chairman, you are on to an extremely 
important issue here, and it is one that I have taken up a 
couple of times.
    There is the plan developed by the Coast Guard, internal to 
the Coast Guard. It appears as though that plan cannot be 
delivered to us until OMB approves it. In other words, censors 
it, reduces it, and brings it into compliance with their notion 
of the overall Federal budget, which puts the Coast Guard in a 
very difficult situation, and puts us as though we are 
mushrooms kept in the dark.
    We really need to know what the Coast Guard needs, 
unscrubbed, uncensored, and direct from the Coast Guard without 
OMB.
    I think we understand OMB very clearly. Mr. Mulvaney at OMB 
has his own vision of Government. I do not--it is certainly not 
my vision, nor do I believe it is a vision of Government that 
meets the needs of the Coast Guard in protecting all of the 
title 10 and title 14 responsibilities that the Coast Guard 
has.
    So what I would like to work with the chairman on is to get 
directly from the Coast Guard uncensored information about what 
the operational and maintenance requirements are for the Coast 
Guard over the next 5 years, and beyond, as well as the 
acquisition requirements of the Coast Guard to meet their 
program of record funding requirements.
    Without that information, we cannot do our job. That is the 
job of making choices, choices about what the Coast Guard 
needs, versus all the other requirements of Government. And so 
that is what I think we need. I will work with the chairman to 
try to get that directly from the Coast Guard uncensored, 
unscrubbed. Let's see if we can do it.
    And Mr. Acton, you are quite correct. The Coast Guard has 
been very, very good soldiers. They salute and carry out the 
responsibilities that have been given to them as modified and 
directed by the President and the Office of Management and 
Budget. However, we have our responsibilities, too. And they 
are somewhat different.
    I yield back.
    Mr. Hunter. I thank the ranking member. So here is what we 
are going to do. We are going to have a hearing in July on the 
5-year plan and the 20-year plan and on your unfunded 
requirements list. Because what--the easy way to take care of 
this is when you submit your request to OMB, and they scrub it, 
you take all the things that they took out, and you have put 
all of those, prioritized, in an unfunded requirement list. 
Then, in essence, you have done what the ranking member just 
said. That means we get to see the unvarnished, everything that 
you have asked for, presented to Congress. That is what I would 
like you to do.
    So you have the budget that you have--go ahead.
    Mr. Garamendi. Mr. Chairman, my experience at the 
Department of the Interior is that there is a step in here, and 
that is the Office of Management and Budget sends to the 
agencies the parameters in which they must then develop their 
budget, which is again a control mechanism by the Office of 
Management and Budget. But that doesn't necessarily provide us 
with the information we need about the acquisition and the 
maintenance and operations.
    So, I want to be careful here about what we are actually 
getting.
    Mr. Hunter. And please try to get us as much as you can, 
whether it has been approved or not. Like I said, we will have 
a hearing at the end of July on this stuff, and hopefully have 
the answers by then.
    And, with that, the last thing I would like to do right 
now, since there are no further questions, is recognize Reyna. 
I would like to take a few minutes to recognize Lieutenant 
Commander Reyna Hernandez McGrail--you are Irish, Hispanic, 
everything? That is good. That is good.
    Reyna is a native of Roswell, New Mexico. She is a Coast 
Guard Academy graduate with a master's degree in international 
and public policy from Johns Hopkins University. She is who 
John Rayfield described as a no-joke boat operator, which I 
think every Coastie likes to hear, even though you have been 
stuck here.
    During her career in the Coast Guard, she has served on the 
Coast Guard cutters Decisive--and I think the Decisive on that 
chart was supposed to be decommissioned, like, 5, 6 years ago. 
So good luck to you.
    [Laughter]
    Mr. Hunter. The Decisive, Haddock, the Key Biscayne, and 
Monomoy, which brought her to the Middle East during Operation 
Enduring Freedom.
    During her tenure in Washington, DC, she served in Coast 
Guard headquarters, and as the senior duty officer in the White 
House Situation Room during parts of the Bush and Obama 
administrations. She then found her service taking her here, to 
the Capitol.
    She has been with the subcommittee since 2014, and her 
knowledge of and experience with the Coast Guard have made her 
an indispensable asset to have on staff. Her interpersonal 
skills and professionalism every day show she is an exemplary 
Coast Guard officer, and she was a great representative of the 
Service during her time with the subcommittee.
    Reyna's time with the subcommittee is coming to an end 
today on June 7th. She will be heading down to Pascagoula, 
Mississippi, to join her crew on the Coast Guard cutter 
Decisive. On behalf of the committee and the subcommittee, I 
would like to thank her for her service, for her time with us, 
and wish her well in her future endeavors.
    Reyna, thank you very much.
    [Applause]
    Mr. Hunter. And, with that, the hearing is adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
